<html>
<title> - LIVE FROM SPACE: THE INTERNATIONAL SPACE STATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                            LIVE FROM SPACE:
                    THE INTERNATIONAL SPACE STATION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2005

                               __________

                           Serial No. 109-17

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
21-710                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                   KEN CALVERT, California, Chairman
RALPH M. HALL, Texas                 MARK UDALL, Colorado
LAMAR S. SMITH, Texas                DAVID WU, Oregon
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   JIM COSTA, California
TOM FEENEY, Florida                  AL GREEN, Texas
MICHAEL T. MCCAUL, Texas             CHARLIE MELANCON, Louisiana
VACANCY                                  
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
                BILL ADKINS Subcommittee Staff Director
                 ED FEDDEMAN Professional Staff Member
                  KEN MONROE Professional Staff Member
                 CHRIS SHANK Professional Staff Member
               ROSELEE ROBERTS Professional Staff Member
         RICHARD OBERMANN Democratic Professional Staff Member
                      TOM HAMMOND Staff Assistant


                            C O N T E N T S

                             June 14, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

Statement by Representative Mark Udall, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    14

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    14

                               Witnesses:

Dr. John Phillips, NASA Astronaut, Science Officer and Flight 
  Engineer, ISS Expedition 11 (April 2005-present)

Dr. Peggy A. Whitson, NASA Astronaut, Science Officer and Flight 
  Engineer, ISS Expedition 5 (June-December 2002)
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    20

Lt. Col. Michael Fincke (USAF), NASA Astronaut, Science Officer 
  and Flight Engineer, ISS Expedition 9 (April-October 2004)

Discussion
  Lessons Learned for Long-Duration Space Flight.................    21
  Safe Haven.....................................................    22
  Resource Consumption...........................................    22
  Effects of Long-Duration Space Flight..........................    23
  NASA's Role in Inspiring Youth.................................    24
  Language Barriers..............................................    26
  Space Suits....................................................    27
  Radiation......................................................    27
  Lessons Learned for Long-Duration Space Flight (cont.).........    28
  ISS and the View of Earth......................................    29
  ISS Orbit......................................................    30
  ISS Completion.................................................    30
  ISS Research Accomplishments...................................    31
  The Impact on ISS From the Shuttle Grounding...................    32
  Russian Cooperation............................................    32
  Safety.........................................................    33
  Research Aboard the ISS........................................    33
  Radiation......................................................    34
  Benefits of Human Space Flight.................................    35
  ISS Configuration and Schedule.................................    36
  ISS Resupply...................................................    37
  Resupply: ISS vs. Moon.........................................    38
  ISS Configuration and Shuttle Launch Rates.....................    39
  Challenges of Human Space Flight...............................    40
  Future CEV Designs.............................................    41
  Microgravity Research..........................................    42

              Appendix: Additional Material for the Record

NASA's Space Station Program: Evolution of Its Rationale and 
  Expected Uses, Marcia S. Smith, Specialist in Aerospace and 
  Telecommunications Policy Resources, Science, and Industry 
  Division, Congressional Research Service.......................    46


            LIVE FROM SPACE: THE INTERNATIONAL SPACE STATION

                              ----------                              


                         TUESDAY, JUNE 14, 2005

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 2:05 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ken Calvert 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                            Live From Space:

                    The International Space Station

                         tuesday, june 14, 2005
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, June 14, at 2:00 p.m., the Committee on Science, 
Subcommittee on Space and Aeronautics, will hold a hearing via 
satellite with National Aeronautics and Space Administration (NASA) 
astronaut John Phillips, a member of the current crew of the 
International Space Station (ISS). The other crew member on board ISS 
is Russian Cosmonaut Sergei Krikalev, the Commander of Expedition 11, 
who will not be participating in the hearing.
    In addition to Phillips appearing via satellite, there will be two 
astronauts appearing in-person who have flown in space as part of the 
ISS program. The hearing will provide Members with the opportunity to 
interact directly with those who are operating and performing research 
on ISS.
    This is the first hearing in Congressional history with a witness 
testifying from space. It is possible because of advanced 
communications technology on ISS and significant preparation and 
coordination by NASA and the Committee. For technical reasons, the 
video communication link will only be available for a limited period of 
time, approximately 15 minutes.

Overarching Questions

    The hearing will review the current activities onboard ISS, 
accomplishments of the crew, status of current research on the Station, 
and observations on extended human space flight, and explore the 
following overarching questions:

        1.  What are the biggest challenges and opportunities of living 
        and working on ISS?

        2.  What are the scientific (research) and engineering 
        accomplishments that have resulted from operation of ISS?

Witnesses

    The hearing will feature the following witnesses.\1\
---------------------------------------------------------------------------
    \1\ Detailed biographies of the witnesses are included in Appendix 
A.

Dr. John Phillips is a NASA astronaut and is currently living and 
working aboard ISS as the Science Officer and Flight Engineer of 
---------------------------------------------------------------------------
Expedition 11.

Dr. Peggy Whitson is a NASA astronaut, and was formerly a member of the 
ISS crew during Expedition 5 (June-Dec. 2002).

Lt. Col. Michael Fincke (USAF) is a NASA astronaut, and was formerly a 
member of the ISS crew during Expedition 9 (April-Oct. 2004).

Background

    In-orbit assembly of ISS began in 1998 with the launch of the first 
two segments: the Zarya (``Dawn'') module, built and launched by 
Russia, but paid for by NASA; and the Unity module, built by NASA and 
launched on the Space Shuttle in late 1998. In total, there have been 
16 Shuttle missions to ISS (for assembly, logistics and utilization), 
as well as 30 Russian launches to ISS (which includes three launches of 
ISS modules, 10 Soyuz crew launches and 17 unmanned Progress re-supply 
launches). In addition, astronauts have performed 58 spacewalks in 
conjunction with ISS (25 Shuttle-based, and 33 ISS-based), totaling 
more than 348 hours.
    ISS has been permanently occupied by joint U.S.-Russian 
``Expedition'' crews, rotating on four to six month shifts, since 
November 2000. The current crew is the 11th rotation, or increment, and 
is thus designated Expedition 11.
    The United States is building ISS in partnership with Russia, 
Canada, Japan, and 10 European countries. In addition, Brazil has a 
bilateral agreement with NASA to participate in the program. The 
attached diagram illustrates the layout of the various segments of ISS.
    ISS assembly was approximately 50 percent complete (by mass) before 
the loss of the Space Shuttle Columbia in February 2003 halted 
construction. Because the Shuttle is the primary means of both assembly 
and re-supply for ISS, this has presented the ISS program with 
substantial challenges in conducting normal operations for the past two 
years. Without Shuttle, ISS crews have relied on unmanned Russian 
Progress vehicles as the primary means for re-supply of spare parts and 
consumables (water, food, etc.). Additionally the Russian Soyuz 
vehicles have been the only means of ferrying crew to and from ISS. (A 
single Soyuz vehicle is always docked at ISS at any one time to provide 
the crew with a lifeboat in case of emergency. Each Soyuz must be 
replaced every six months.)
    Prior to the Columbia tragedy, ISS Expedition crews were composed 
of three members: two Russians and one American or one Russian and two 
Americans. After Columbia, the crew size was reduced to two (one 
Russian and one American) to reduce the need for ISS to be re-supplied. 
The partners plan to restore the three-person crew size this fall with 
the addition of a crew member who would be transported to ISS on STS-
121 (the second Shuttle mission after return-to-flight), scheduled for 
later this year.
    Despite the reduction in crew size, ISS Expedition crews have 
continued to conduct research while the Shuttle is grounded, primarily 
using equipment already aboard ISS. (For a list of experiments being 
conducted by the Expedition 11 crew, see Appendix B.) The post-Columbia 
accident Expedition crews have dealt with a variety of equipment 
failures, such as repeated shutdowns of the Russian oxygen generating 
device, known as the Elektron. According to NASA, there are sufficient 
alternate supplies of oxygen aboard ISS, or scheduled to be delivered 
by re-supply missions, that the Elektron failure is not currently a 
safety issue. A new Elektron unit is scheduled to be delivered to ISS 
later this summer.
    There have also been failures of two of the four Control Moment 
Gyros (CMGs) that help keep the space station oriented properly. One 
CMG failed permanently and is scheduled to be replaced on the next 
Shuttle flight. A second CMG was repaired by crews on spacewalks, but 
has failed again. NASA hopes to repair this second unit on the next 
Shuttle flight as well. Only two CMGs are required to maintain the 
Station's proper orientation. If another were to fail, however, proper 
orientation can be maintained using rocket thrusters on one of the 
Russian modules. In order to conserve rocket propellant, though, such 
an arrangement is not preferable.
    NASA also is currently reformulating its scientific research 
program for ISS in light of President Bush's directive that the 
research be focused on projects that support the Vision for Space 
Exploration. In addition to gaining information about human adaptation 
to weightlessness that may be needed for eventual human trips to Mars, 
NASA Administrator Mike Griffin has cited the importance of the 
Station's potential role in testing hardware intended to go to the Moon 
or Mars. One example could be closed-loop life support systems.

The Crew

    NASA astronaut John Phillips currently serves as Science Officer 
and Flight Engineer for ISS Expedition 11. Phillips flew aboard the 
Space Shuttle in 2001 on STS-100, logging nearly 12 days and five 
million miles in space. He also served as a backup crew member to ISS 
Expedition 7, completing that assignment in February 2003.

    The other crew member on board ISS is Russian Cosmonaut Sergei 
Krikalev, the Commander of Expedition 11, who will not be participating 
in the hearing. As commander, Krikalev is responsible for the overall 
safety and success of the mission. Krikalev is a veteran of five 
previous space flights, including two missions to the Russian space 
station Mir and two Shuttle flights. He was a member of the first ISS 
crew (Expedition One), serving aboard a much smaller ISS than that of 
today, from Nov. 2, 2000, to March 18, 2001. Before Expedition 11, he 
had spent a year, five months and 10 days in space. At the conclusion 
of this mission, he will be the world's most experienced space 
traveler.

Expedition 11

    Phillips and Krikalev are currently living and working aboard ISS 
on a six-month tour of duty. Expedition 11 was launched from the 
Baikonur Cosmodrome in Kazakhstan on April 14, 2005 aboard a Russian 
Soyuz, which docked with ISS on April 16, 2005.
    Expedition 11 replaced Expedition 10, which was on ISS from October 
2004 until April 2005 (191 days). Expedition 11 is scheduled to return 
to Earth in October after approximately 180 days on orbit. Plans call 
for Phillips and Krikalev to perform one spacewalk. The astronauts will 
continue outfitting the exterior of ISS and work with scientific 
experiments.
    Phillips and Krikalev will also welcome the arrival of two Russian 
Progress unmanned supply vehicles, one of which is scheduled for launch 
on June 16 (and should reach the Station on June 18), and the other is 
scheduled for launch near the end of August.
    Highlights of the Expedition 11 crew's mission are scheduled to 
include welcoming the return of Space Shuttle crews, STS-114 
(Discovery) and STS-121 (Atlantis), if the current Return-to-Flight 
schedule holds. The Shuttle missions will deliver several tons of 
supplies and research equipment to ISS, and the Shuttle crews also are 
expected to conduct spacewalks. As noted, STS-121 may leave a third 
astronaut aboard ISS to serve as a long-duration crew member.

Questions for the Witnesses

    The witnesses were asked to address the following questions in 
their testimony:
Questions for Dr. John Phillips
    In your testimony, please describe (and, to the extent possible, 
show during the hearing) how you conduct a typical day on the 
International Space Station and what are the greatest challenges, with 
specific attention to the following questions:

        1.  How have the loss of the Columbia Shuttle and the inability 
        to use the Shuttle to re-supply the Station affected its 
        operations during the last two years?

        2.  How do you deal with safety-related issues while on board 
        ISS, such as taking shelter from solar flares, maintaining 
        oxygen supplies, or keeping fit to reduce the bone loss 
        associated with long-duration space flight?

        3.  What research does the crew of Expedition 11 plan to 
        conduct while on board the Station?

Questions for Dr. Peggy Whitson
    In your testimony, please describe your most important 
accomplishments (both for assembly and operations) during your stay on 
the International Space Station, as well as problems you may have 
experienced, with particular emphasis on the following questions:

        1.  What are the challenges of performing extravehicular 
        activity (EVAs, or spacewalks) from the Station? What can EVAs 
        from the Station teach us that we can apply to future 
        Exploration-related activities?

        2.  What role does the micrometeoroid shielding you helped to 
        install play in the operation and maintenance of the Station?

        3.  What impacts did your stay aboard the Station have on your 
        health? How quickly did you become re-acclimated to Earth? How 
        did your experience in that regard compare to that of other 
        astronauts?

        4.  What did you learn about the psychological dynamics and 
        stresses of living with a small crew in space? What was most 
        unexpected about your experience?

    Lt. Col. Michael Fincke was added to the witness list after the 
delivery of the formal invitation letters, and thus did not receive 
questions to address for the hearing.

Appendix A

Expedition 11 Crew Bio

John Phillips (Ph.D.), ISS Science Officer and Flight Engineer, 
                    Expedition 11

    John Phillips, 54, received a Bachelor of Science degree in 
mathematics and Russian from the U.S. Naval Academy in 1972 (where he 
graduated second in his class), a Master of Science degree in 
aeronautical systems from the University of West Florida in 1974, and a 
Master of Science and doctorate in geophysics and space physics from 
the University of California, Los Angeles (UCLA) in 1984 and 1987 
respectively. He has been awarded the NASA Space Flight Medal and 
various military awards.
    Phillips received a Navy commission upon graduation from the U.S. 
Naval Academy in 1972 and was designated a Naval Aviator in November 
1974. He trained in the A-7 Corsair Aircraft at Naval Air Station 
Lemoore, California and made overseas deployment with Attack Squadron 
155 aboard the USS Oriskany and USS Roosevelt. Subsequent tours of duty 
included navy recruiting in Albany, New York, and flying the CT-39 
Sabreliner Aircraft at Naval Air Station North Island, California.
    After leaving the Navy in 1982, Phillips enrolled as a graduate 
student at UCLA. While at UCLA he carried out research involving 
observations by the NASA Pioneer Venus Spacecraft. Upon completing his 
doctorate in 1987, he was awarded a J. Robert Oppenheimer Postdoctoral 
Fellowship at Los Alamos National Laboratory in New Mexico. He accepted 
a career position at Los Alamos in 1989. While there, Phillips 
performed research on the sun and the space environment. From 1993 
through 1996 he was Principal Investigator for the Solar Wind Plasma 
Experiment aboard the Ulysses Spacecraft as it executed a unique 
trajectory over the poles of the sun.
    After being selected as an astronaut by NASA in 1996 and completing 
astronaut candidate training, Phillips has held various jobs in the 
Astronaut Office, including systems engineering and as International 
Space Station Spacecraft Communicator (ISS CAPCOM).
    In addition to his current space flight experience as Science 
Officer for ISS Expedition 11, Phillips flew aboard Space Shuttle 
Endeavour on the STS-100 mission (April 19 to May 1, 2001). During the 
12-day, 187 orbit mission, the Shuttle crew successfully delivered and 
installed the Canadarm-2 Robotic Arm on ISS. They also delivered 
experiments and supplies aboard the Multi-Purpose Logistics Module 
Raffaello on its maiden flight. Phillips was the Ascent/Entry Flight 
engineer and was the intravehicular activity coordinator during two 
space walks. Phillips also served as a backup crew member to ISS 
Expedition 7, completing that assignment in February 2003.

Witnesses Appearing In-person

Peggy Whitson (Ph.D.), NASA Astronaut, ISS Science Officer, Expedition 
                    5

    Peggy Whitson received a Bachelor of Science degree in biology/
chemistry from Iowa Wesleyan College in 1981, and a doctorate in 
biochemistry from Rice University in 1985. She has received numerous 
awards and honors, including the NASA Space Flight Medal, and the Group 
Achievement Award for Shuttle-Mir Program. Dr. Whitson has also had two 
patents approved.
    Upon completion of her graduate work, Whitson continued at Rice 
University as Postdoctoral Fellow until October 1986, at which point 
she began her studies at NASA Johnson Space Center, as a National 
Research Council Resident Research Associate.
    In 1992, Whitson was named the Project Scientist of the Shuttle-Mir 
Program (STS-60, STS-63, STS-71, Mir 18, Mir 19) through 1995. From 
1993-1996 she held the additional responsibilities of the Deputy 
Division Chief of the Medical Sciences Division at NASA-JSC. From 1995-
1996 she served as Co-Chair of the U.S.-Russian Mission Science Working 
Group.
    In April 1996, Whitson was selected as an astronaut candidate. Upon 
completing two years of training and evaluation, she was assigned 
technical duties in the Astronaut Office Operations Planning Branch and 
served as the lead for the Crew Test Support Team in Russia from 1998-
99. From November 2003 to March 2005 she served as Deputy Chief of the 
Astronaut Office.
    Whitson served as NASA Science Officer on the Expedition 5 crew for 
ISS, which launched on June 5, 2002 aboard STS-111 (Endeavour) and 
docked with ISS on June 7, 2002. During her six-month stay aboard ISS, 
Whitson installed the Mobile Base System, the S1 truss segment, and the 
P1 truss segment using the Space Station remote manipulator system, 
performed a four hour and 25 minute spacewalk to install micrometeoroid 
shielding on the Zvezda Service Module, and activated and checked out 
the Microgravity Sciences Glovebox, a science payload rack. She 
conducted 21 investigations in human life sciences and microgravity 
sciences, as well as commercial payloads. The Expedition 5 crew (one 
American astronaut and two Russian cosmonauts) returned to Earth aboard 
STS-113 (Endeavour) on December 7, 2002. Completing her first flight, 
Whitson logged over 184 days in space.

Michael (``Mike'') Fincke (Lt. Col., USAF) NASA Astronaut, ISS Science 
                    Officer, Expedition 9

    Lt. Col. Fincke graduated from the Massachusetts Institute of 
Technology on an Air Force ROTC scholarship in 1989 with a Bachelor of 
Science in Aeronautics and Astronautics as well as a Bachelor of 
Science in Earth, Atmospheric and Planetary Sciences. He then received 
a Master of Science in Aeronautics and Astronautics from Stanford 
University in 1990 and a second Master of Science in Physical Sciences 
(Planetary Geology) from the University of Houston, Clear Lake in 2001. 
He is the recipient of two United States Air Force Commendation Medals, 
the United States Air Force Achievement Medal, and various unit and 
service awards.
    In April 1996, Lt. Col. Fincke was selected as an astronaut 
candidate. Upon completing two years of training and evaluation, he was 
assigned technical duties in the Astronaut Office Station Operations 
Branch serving as an International Space Station Spacecraft 
Communicator (ISS CAPCOM), a member of the Crew Test Support Team in 
Russia and as the ISS crew procedures team lead. He also served as 
back-up crew member for the ISS Expedition-4 and Expedition-6 and is 
qualified to fly as a left-seat Flight Engineer (co-pilot) on the 
Russian Soyuz spacecraft.
    Lt. Col. Fincke served as NASA Science Officer on the Expedition 9 
crew for ISS, which was launched from the Baikonur Cosmodrome, 
Kazakhstan aboard a Soyuz spacecraft, docking with ISS on April 21, 
2004. He spent six-months aboard the station during which time he 
continued ISS science operations, maintained Station systems, and 
performed four spacewalks. The Expedition-9 mission concluded with 
undocking from the Station and safe landing back in Kazakhstan on 
October 23, 2004. Lt. Col. Fincke completed his first mission in 187 
days, and logged over 15 hours of EVA time.

Appendix B

Expedition 11 Science Overview

    (The following section is adapted from the Expedition 11 press kit, 
available from: http://www.shuttlepresskit.com/EXPEDITION11/index.htm)

    Expedition 11--the 11th long-duration crew on ISS--began in April 
2005, when the 11th crew arrived at the Station aboard a Russian Soyuz 
spacecraft. NASA ISS Science Officer Phillips and Russian Commander 
Krikalev, will maintain the Station and work with science teams on the 
ground to operate experiments and collect data.
    During Expedition 11, two Russian Progress cargo flights are 
scheduled to dock with ISS. The Progress re-supply ships will transport 
supplies to the Station and carry scientific equipment. Much of the 
research activities for Expedition 11 will be carried out with 
scientific facilities and samples already on board ISS, as well as with 
new research facilities transported by the next two Space Shuttle 
missions--STS-114 scheduled for launch in July 2005, and STS-121 
scheduled for launch later in 2005. Additional experiments are being 
evaluated and prepared to make use of limited cargo space on the Soyuz 
or Progress vehicles. The research agenda for the expedition remains 
flexible. While most equipment and samples can remain on board the 
Station with minimal or no detrimental effects, a few perishable 
samples--urine samples, for example--may be returned to Earth on the 
Soyuz.
    The Expedition 11 crew has more than 100 hours scheduled for U.S. 
payload activities. Space Station science also will be conducted by 
remote ``crewmembers''--the team of controllers and scientists on the 
ground, who will continue to plan, monitor and operate experiments from 
control centers across the United States. A team of controllers for 
Expedition 11 will work in the ISS Payload Operations Center--NASA's 
science command post for the Space Station--at NASA's Marshall Space 
Flight Center Huntsville, Ala. Controllers work in three shifts around 
the clock, seven days a week in the Payload Operations Center, which 
links researchers around the world with their experiments and the crew 
aboard the Station.

EXPERIMENTS USING ON-BOARD RESOURCES

    Many experiments from earlier Expeditions remain aboard the Space 
Station and will continue to benefit from the long-term research 
platform provided by the orbiting laboratory. These experiments 
include:

Crew Earth Observations (CEO) takes advantage of the crew in space to 
observe and photograph natural and man-made changes on Earth. The 
photographs record Earth surface changes over time, as well as more 
fleeting events such as storms, floods, fires and volcanic eruptions. 
Together they provide researchers on Earth with vital, continuous 
images needed to better understand the planet.

Dust Aerosol Measurement Feasibility Test (DAFT) tests the ability of 
different equipment to measure the levels of dust and air quality in 
order to improve fire detection capabilities in space.

Materials on the International Space Station Experiment (MISSE) is a 
suitcase-sized experiment attached to the outside of the Space Station. 
It exposes hundreds of potential space construction materials to the 
environment. The samples will be returned to Earth for study during a 
later expedition. Investigators will use the resulting data to design 
stronger, more durable spacecraft.

Protein Crystal Growth Single-locker Thermal Enclosure System (PCG-
STES) will continue to process crystals that have been growing since 
Expedition 6, launched in October 2002. Crystals that also were grown 
on Expeditions 2 beginning in March 2001, as well as Expedition 4 
launched in December 2001, and Expedition 5 beginning in June 2002, 
were returned to Earth for analysis. The facility provides a 
temperature-controlled environment for growing high-quality protein 
crystals of selected proteins in microgravity for later analyses on the 
ground to determine the proteins' molecular structure. Research may 
contribute to advances in medicine, agriculture and other fields.

Space Acceleration Measurement System II (SAMS-II) and Microgravity 
Acceleration Measurement System (MAMS) sensors measure vibrations 
caused by crew, equipment and other sources that could disturb 
microgravity experiments.

HUMAN LIFE SCIENCE INVESTIGATIONS

    Many continuing experiments will use measurements of Expedition 11 
crewmembers to study changes in the body caused by exposure to the 
microgravity environment.

Chromosomal Aberrations in Blood Lymphocytes of Astronauts 
(Chromosome), will study space radiation on humans. The expected 
results will provide a better knowledge of the genetic risk of 
astronauts in space and can help to optimize radiation shielding.

Promoting Sensorimotor Response to Generalizability: A Countermeasure 
to Mitigate Locomotor Dysfunction After Long-duration Spaceflight 
(Mobility) studies changes in posture and gait after long-duration 
space flight. Study results are expected to help in the development of 
an in-flight treadmill training program for Station crew members that 
could facilitate rapid recovery of functional mobility after long 
duration space flight.

Behavioral Issues Associated with Isolation and Confinement: Review and 
Analysis of Astronaut Journals collects behavioral and human factors 
data for analysis, with the intention of furthering our understanding 
of life in isolation and confinement. The objective of the experiment 
is to identify equipment, habitat and procedural features that help 
humans adjust to isolation and confinement and remain effective and 
productive during future long-duration space expeditions.

Advanced Diagnostic Ultrasound in Microgravity (ADUM) involves crew 
members conducting ultrasound exams on one another with minimal 
training and with direction from a ground based sonographer. 
Verification of these advanced ultrasound techniques and telemedicine 
strategies could have widespread applications in emergency and rural 
care situations on Earth.

The Biopsy experiment allows researchers to take biopsies of the 
astronauts' calf muscles before and after their stay on board the Space 
Station. This will allow scientists to begin developing an in-space 
countermeasure exercise program aimed at keeping muscles at their peak 
performance during long missions in space.

Foot/Ground Reaction Forces During Space Flight (Foot) studies the load 
on the lower body and muscle activity in crew members while working on 
the Station. This study will provide better understanding of the bone 
and muscle loss in the lower extremities experienced by astronauts in 
microgravity. The results of this experiment will help in future space 
flights, as well as have significance for understanding, preventing and 
treating osteoporosis on Earth.

The Renal Stone experiment collects urine samples from the crew and 
tests a possible countermeasure for preventing kidney stone formation.

A Comprehensive Characterization of Microorganisms and Allergens in 
Spacecraft (Swab) will use generic techniques for the first time to 
comprehensively evaluate microbes on board the Space Station, including 
pathogens, and to study how the microbial community changes as 
spacecraft visit the Space Station and modules are added. This study 
will monitor Station modules prior to launch to evaluate sources of new 
germs and find ways of preventing additional contamination onboard 
spacecraft.

Space Flight-Induced Reactivation of Latent Epstein-Barr Virus 
(Epstein-Barr) performs tests to study changes in human immune function 
using blood and urine samples collected before and after space flight. 
The study will provide insight for possible countermeasures to prevent 
the potential development of infectious illness in crew members during 
flight.

DESTINY LABORATORY FACILITIES

    Several research facilities are in place aboard the Station to 
support Expedition 11 science investigations:

The Human Research Facility is designed to house and support a variety 
of life sciences experiments. It includes equipment for lung function 
tests, ultrasound to image the heart and many other types of computers 
and medical equipment.

The Microgravity Science Glovebox is the other major dedicated science 
facility inside Destiny. It has a large front window and built-in 
gloves to provide a sealed environment for conducting science and 
technology experiments. The Glovebox is particularly suited for 
handling hazardous materials when a crew is present. The Destiny lab 
also is outfitted with five EXPRESS Racks. EXPRESS (Expedite the 
Processing of Experiments to the Space Station) racks are standard 
payload racks designed to provide experiments with a variety of 
utilities such as power, data, cooling, fluids and gasses. The racks 
support payloads in a several disciplines, including biology, 
chemistry, physics, ecology and medicines. The racks stay in orbit, 
while experiments are changed as needed. EXPRESS Racks 2 and 3 are 
equipped with the Active Rack Isolation System (ARIS) for countering 
minute vibrations from crew movement or operating equipment that could 
disturb delicate experiments.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Calvert. I call this meeting of the Space and 
Aeronautics Subcommittee to order.
    Without objection, the Chair will be granted authority to 
recess the Committee.
    Today, we are going to have a special experience. We are 
going from Capitol Hill ``Live to Space Aboard the 
International Space Station.'' We will be talking to Dr. John 
Phillips, the current U.S. astronaut on the Space Station. From 
his current abode in low-Earth orbit, 218 miles above the 
Earth, Dr. Phillips will be answering some of our questions 
about what it is really like to live in space. This is the 
first hearing in Congressional history with a witness 
testifying from space.
    Our goal today is to hear first hand from the astronauts 
what it is like to live and work in space. We will hear 
directly from the astronauts on how they are dealing with the 
challenges of operating and maintaining the International Space 
Station as well as hear about the research they are conducting. 
This hearing gives us a chance to learn about what is really 
going on in space from those directly involved, rather than 
delve into the programmatic and budgetary details of the ISS 
program.
    Members, you will notice that you have information in your 
packets on special considerations in communicating with Dr. 
Phillips and today's hearing schedule. The other ISS crewmember 
who is currently on board is Cosmonaut Sergei Krikalev, the 
Commander of Expedition 11, will not be participating in the 
hearing. We also have two astronauts who have joined us, each 
of whom have lived on the ISS previously. First is Dr. Peggy 
Whitson, who was on the ISS on Expedition 5 from June through 
December of 2002. Our final witness is Lieutenant Colonel Mike 
Fincke, who was a member of Expedition 9 from April through 
October of 2004.
    We are going to have a very--we will be very brief in 
today's opening statements, so that when we get the connection 
with the International Space Station we can move right on to 
the questions. Dr. Peggy Whitson has agreed to deliver the 
opening statement on behalf of the three astronauts, giving us 
more time for questions for each of the astronauts. Keep in 
mind that our connection with International Space Station is a 
total of only 15 minutes. So instead of the usual five minutes 
for each member, we are going to give each member only two 
minutes, which I will strictly enforce to be fair for everyone. 
If we have time, we will go back around again. That means you 
have two minutes totally for the question and the answer.
    Although we will be able to see Dr. Phillips on the 
International Space Station, he will be unable to see us, so I 
ask that when you ask your questions, please identify yourself. 
There will be a transmission delay, so please wait about a 
second after you turn on your microphone before beginning to 
speak. There is also about a three-second transmission delay 
before Dr. Phillips will hear you and will respond. Be sure to 
speak clearly into the microphone. Again, please ask only one 
question to Dr. Phillips in order to accommodate everyone. When 
we lose the connection to the International Space Station after 
15 minutes, members will have an opportunity to ask questions 
with the standard five-minute rule of our two former ISS 
astronauts that we have here with us today.
    [The prepared statement of Chairman Calvert follows:]
               Prepared Statement of Chairman Ken Calvert
    Today, we are going to have a special experience. We are going from 
Capitol Hill Live to Space Aboard the International Space Station. We 
will be talking with Dr. John Phillips, the current U. S. astronaut on 
the Space Station. From his current abode in Low-Earth Orbit, 218 miles 
above the Earth, Dr. Phillips will answer some of our questions about 
what it is really like to live in space. This is the first hearing in 
Congressional history with a witness testifying from space.
    The International Space Station (ISS) has been permanently occupied 
by joint U.S.-Russian ``Expedition'' crews since November 2000. Dr. 
Phillips is a member of the 11th Expedition. ISS is approximately 50 
percent complete and we are waiting to see what NASA plans to do for 
the final assembly complete. Since the Columbia accident, the Russian 
Soyuz has been the means to ferry crew, and the Russian Progress launch 
vehicle has been the means for re-supply of spare parts and 
consumables. Prior to the Columbia tragedy, the ISS Expedition crews 
were composed of three members--two Russians and one American or two 
Americans and one Russian.
    After Columbia, crew size was reduced to two persons--one American 
and one Russian. Despite this reduction in crew size, ISS Expedition 
crews have continued to conduct research while the Shuttle is grounded, 
primarily using the equipment that is already aboard. NASA will be 
reconfiguring the scientific research program for the ISS to focus on 
projects that support the Vision for Space Exploration. The ISS will be 
a great platform to study humans and their potential adaptation to 
weightlessness as well as for testing hardware intended to go to the 
Moon or other destinations.
    Members, you will notice that you have information in your packets 
on special considerations in communicating with Dr. Phillips and 
today's hearing schedule. The other ISS crew member who is currently on 
board is Cosmonaut Sergei Krikalev, (pronounced sir-gay kree-ka-loff) 
the Commander of Expedition 11, who will not be participating in the 
hearing. We also have two astronauts who have joined us--each of whom 
has lived on the ISS previously. The first is Dr. Peggy Whitson who was 
on the ISS on Expedition 5 from June through December 2002. Our final 
witness is Air Force Lt. Col. Michael Fincke (USAF) (pronounced fink) 
who was a member of Expedition 9 from April through October 2004.
    We are going to be very brief in today's opening statements, so 
that when we get the connection with the ISS, we can move right on to 
questions. Dr. Peggy Whitson has agreed to deliver the opening 
statement on behalf of the three astronauts, giving us more time for 
questions for each of the astronauts. Keep in mind that our connection 
with the ISS a total of only 15 minutes to the ISS. So instead of the 
usual five minutes for each Member, we are going to give each Member 
only two minutes, which I will strictly enforce to be fair to everyone.
    Although we will be able to see Dr. Phillips on the ISS, he will be 
unable to see us, so I ask that when you ask your questions, please 
identify yourself. There will be a transmission delay, so please wait 
about a second after you turn on your microphone before beginning to 
speak. There is also about a three second transmission delay before Dr. 
Phillips will hear you and will respond. Be sure to speak clearly into 
the microphone. Again, please ask only one question to Dr. Phillips in 
order to accommodate everyone. When we lose the connection to the ISS 
in 15 minutes, Members will have an opportunity to ask questions with 
the standard five-minute rule of our two former ISS astronauts that we 
have here with us today.

    Chairman Calvert. And with that, Mr. Udall, you may begin 
your opening statement.
    Mr. Udall. Thank you, Mr. Chairman.
    I want to join the Chairman in welcoming today's witnesses, 
especially Dr. John Phillips, who will be with us from the 
International Space Station. I would also like to take a moment 
to express my personal appreciation to our witnesses, and to 
all of the astronaut corps for the service that you render to 
our nation.
    Human space exploration involves risk, yet it is an 
undertaking that I and you, obviously, believe is important to 
the future of our nation. You have been willing to accept the 
risk, because you also believe in the importance of human space 
exploration.
    Fundamentally, NASA's science and exploration programs are 
about pushing back the boundaries of our ignorance. And, 
properly utilized, that is what I believe that we can do with 
the International Space Station, push back the boundaries of 
our ignorance across a range of scientific and technological 
disciplines.
    The advances we make on the ISS have the potential to 
prepare us for the challenging human missions beyond low-Earth 
orbit. They also have the potential to benefit life back here 
on Earth if we are willing to invest in the necessary 
fundamental and applied research.
    To that end, I would hope that as NASA contemplates a 
restructuring of the ISS research program, it does not unduly 
narrow its focus. We have spent too much time to build the 
Space Station not to try to make optimal use of its 
capabilities. However, that is an issue for another day.
    At today's hearing, I look forward to learning more about 
what it is like to actually live and work in space. And I would 
also like to learn more about how the astronauts on the Station 
are coping with the impact of the Shuttle fleet's grounding.
    Mr. Chairman, today's hearing should be fascinating. I want 
to thank you for holding it, and I look forward to the 
testimony of our witnesses.
    [The prepared statement of Mr. Udall follows:]
            Prepared Statement of Representative Mark Udall
    Good afternoon. I want to join the Chairman in welcoming the 
witnesses to today's hearing--especially Dr. John Phillips, who will be 
talking to us live from the International Space Station. And I'd also 
like to take a moment to express my personal appreciation to our 
witnesses--and to all of the astronaut corps--for the service that you 
render to our nation.
    Human space exploration involves risk. Yet it is an undertaking 
that I believe is important to the future of our nation. You have been 
willing to accept the risk, because you also believe in the importance 
of human space exploration.
    Fundamentally, NASA's science and exploration programs are about 
pushing back the boundaries of our ignorance. And, properly utilized, I 
believe that that is what the International Space Station program can 
do--push back the boundaries of our ignorance across a range of 
scientific and technological disciplines.
    The advances we make on the International Space Station have the 
potential to prepare us for challenging human missions beyond low-Earth 
orbit. They also have the potential to benefit life back here on Earth, 
if we are willing to invest in the necessary fundamental and applied 
research.
    To that end, I would hope that as NASA contemplates a restructuring 
of its ISS research program, it does not unduly narrow its focus--we 
have spent too much to build the Space Station not to try to make 
optimal use of its capabilities. However, that is an issue for another 
day.
    At today's hearing, I look forward to learning more about what it 
is actually like to live and work in space. I'd also like to learn more 
about how the astronauts on the ISS are coping with the impact of the 
Shuttle fleet's grounding.
    Mr. Chairman, today's hearing should be fascinating. I want to 
thank you for holding it, and I look forward to the testimony of our 
witnesses. Thank you.

    Chairman Calvert. I thank the gentleman for his testimony.
    Without objection, the additional statements of other 
Members will be put into the written record, so we can get 
right to the questions. Hearing no objection, so ordered.
    [The prepared statement of Ms. Jackson Lee follows:]
        Prepared Statement of Representative Sheila Jackson Lee

Chairman Calvert, Ranking Member Udall,

    I am honored to be here today for this historic Subcommittee 
hearing with American astronauts who have been on the International 
Space Station. I want to welcome our distinguished panel of witnesses 
to the Subcommittee on Space and Aeronautics. Indeed, we have a unique 
opportunity to interact with Dr. John Phillips who will be testifying 
live from the ISS; the first time in history such testimony has taken 
place.
    While I appreciate the Chairman and Ranking Member of this 
subcommittee for organizing this hearing, I would be remiss if I did 
not reiterate my belief that we need to hold a hearing on safety. After 
the tragic Columbia Space Shuttle accident safety has been the number 
one priority of this subcommittee. I believe there should be a safety 
hearing not only for our Space Shuttle which is returning to flight, 
but also for safety on-board the ISS.
    I have long been a supporter of the ISS and its mission. Indeed, 
this mission is unique among other space exploration missions because 
of the cooperation between nations. The ISS is truly an international 
program with the original partnership being established in 1988 
including the U.S., Japan, and the European Space Agency. Russia was 
later invited to joint the partnership in 1993, and revised 
international agreements governing the program were signed in 1998. 
Since that time, the ISS has pushed the boundaries of what had been 
previously achieved in space. The first ISS modules were launched in 
1998 and astronauts began continuous occupation of the ISS in November 
2000. At the start permanent crews consisted of three astronauts, 
however, since the tragic Columbia Space Shuttle accident grounded the 
Shuttle fleet in 2003, crew size has been limited to only two 
astronauts.
    Because of the current limitations of our Space Shuttle program and 
that of the Russian space program, the ISS has undergone some recent 
challenges in maintaining safe and sustained operations. In fact 
recently the Russian Elektron oxygen generator has been having repeated 
problems. Water and food have also been carefully rationed. In late 
2004, the Expedition 10 crew had to limit its food intake due to 
shortages on-board the ISS. These problems are being addressed but they 
only underscore the fact that safety on-board the ISS must be more 
closely scrutinized.
    At this time the ISS assembly is scheduled to be completed around 
2010, but little is certain as far as a timetable as NASA is currently 
reviewing the assembly schedule and content. As I stated, I am a strong 
supporter of the ISS and hope that we can move forward with its 
mission. However, our mission for discovery can not be done in haste; 
instead we must ensure that all steps have been taken to minimize the 
risk to astronauts on-board.

    Chairman Calvert. I also ask unanimous consent to insert at 
the appropriate place in the record, the background memorandum 
prepared by the Majority staff for this hearing. Hearing no 
objection, so ordered.
    Today, we will begin our hearing with testimony from Dr. 
Peggy Whitson, a NASA astronaut who was formerly a member of 
the International Space Station crew during the Expedition 5 
from June to December of 2002, as I mentioned earlier. If we 
have time before we are connected to the International Space 
Station, we can allow a couple of brief questions of Dr. 
Whitson and to Lieutenant Colonel Michael Fincke sitting at the 
witness table. However, once we begin the connection to 
International Space Station, we will immediately move to the 
two-minute rounds of questions to Dr. Phillips. Once we lose 
the connection, we will resume the questions to Dr. Whitson and 
Lieutenant Colonel Fincke.
    And with that, Dr. Whitson, you may begin your opening 
statement.

  STATEMENT OF DR. PEGGY A. WHITSON, NASA ASTRONAUT, SCIENCE 
 OFFICER AND FLIGHT ENGINEER, ISS EXPEDITION 5 (JUNE-DECEMBER 
                             2002)

    Dr. Whitson. Well, Mr. Chairman and Members of the 
Committee, it is a real honor for us to be here today to 
testify about the International Space Station. As mentioned, I 
am here with Lieutenant Colonel Mike Fincke. He was Flight 
Engineer and Science Officer on board during Expedition 9, and 
Dr. John Phillips is serving in that same role on board the 
International Space Station right now.
    I thought I would start off with just a few comments about 
my experience on board the International Space Station and give 
you a big picture of where John and Sergei's mission is on 
orbit and what we plan on as part of the next six months of 
their stay.
    As a scientist, it was really exciting for me to be the on-
orbit hands of the investigators on the ground. And as 
uniquely, probably, or nearly uniquely, as the daughter of a 
farmer, it was also a very exciting thing to do a soybean, 
commercial soybean plant growth experiment while on board the 
International Space Station. I think my dad had a greater yield 
of soybeans than I did, but it was still a lot of fun to 
compare stories.
    We also got--I also got to participate in another 
experiment that I am a principle investigator on looking at the 
efficacy of potassium citrate and reducing the kidney stone-
forming potential in astronauts. Because of the bone 
demineralization process that occurs on orbit, there is a 
greater risk of kidney stones forming. And actually, we are 
continuing that experiment, and John and Sergei on orbit are my 
next subjects, and they will be continuing that experiment.
    My background in human life sciences really gave me a 
unique opportunity to know in advance of my space flight all of 
the things that might--I might experience when I went into zero 
gravity and actually returning back to Earth, but I would have 
to say that even I was surprised by how much a neuro-vestibular 
imbalance I felt upon returning to Earth. As you know, the 
International Space Station is orbiting at 17,500 miles per 
hour, and when I returned to Earth, I felt like the Earth was 
orbiting around me at approximately 17,500 miles per hour. 
Luckily, that recovery was relatively quick, and within a day 
or so, I had recovered from that particular effect of being at 
zero gravity for a six-month period.
    I am sure John is going to be really happy to share his 
experience on board the International Space Station with you 
and some of his science background that he is working on up 
there. In addition to the science activities they are doing, 
John and Sergei are doing a space walk to set up some 
experiments externally. They are also going to be performing a 
number of maintenance tests, routine maintenance tests. They 
will be greeting two progress resupply vehicles. These are 
Russian resupply vehicles. One is actually arriving to the 
International Space Station later this week.
    And then, of course, we are very excited about the arrival 
of the Discovery with Eileen Collins and her six crew members 
on the Shuttle return to flight. So they will be on board 
during that mission as well. During that time, during the 
docked phase of that Shuttle mission, they will do--perform 
three space walks and transfer, literally, tons of hardware to 
and from the Station.
    The Expedition 11 crew has more than 100 hours of science 
and payload activities planned. In addition to being the 
subjects for my experiment, they are also doing a number of 
different activities looking at the human physiology and the 
effects of long duration and being in space. And one of the 
more interesting studies that, actually, Mike and I both 
participated in and is being continued is developing the 
techniques using ultrasound by non-experienced crew members or 
untrained professionals to do ultrasounds in a very complex 
manner. And actually, that is something that can apply to us 
here on Earth as well in real medicine scenarios or even on 
battlefields. So we are excited about that research as well.
    In summary, I just wanted to say that the International 
Space Station is an incredible engineering feat, and our 
studies to understand how the human body responds to that and 
our understanding of all of the complications and problems that 
arise as a part of operating this Station is going to help us 
prepare for the longer duration missions to the Moon and Mars 
and beyond.
    And Mike and I are really excited about taking any 
questions you might have, and we will get a signal here in a 
little bit about when we can start talking to John.
    [The prepared statement of Dr. Whitson follows:]

                 Prepared Statement of Peggy A. Whitson

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today. I consider it an honor to 
appear here with Mike Fincke, who was the Science Officer on Expedition 
9. In just a few minutes, John Phillips, Expedition 11 Flight Engineer 
and Science Officer, will be appearing live, via satellite, from the 
ISS to answer questions about life on orbit. First, I'd like to tell 
you a little about my experience on the Station as part of Expedition 5 
and then provide you with an overview of current activities aboard the 
Station.

Life and Work Aboard the International Space Station

    In the over four years of continuous human presence on board the 
ISS, we have performed important science that will allow us to expand 
our presence into the solar system. We have discovered things that make 
our life here on Earth better. We have learned about technologies and 
processes which will help us meet the challenges of future exploration.
    While we can to some extent simulate living conditions in space 
here on the ground, there is no substitute for experience in the actual 
space environment. Simply put, to learn how to live in space, we must 
live in space. Every experiment, every space walk, every repair and 
every piece of hardware assembled teaches us something new. A full time 
human presence aboard the ISS offers us a tremendous opportunity to 
study human survival in the hostile environment of space and assess how 
to overcome the technological hurdles to human exploration beyond Earth 
orbit, as called for in the Vision for Space Exploration.
    During my time on Station (Expedition 5), we hosted three Shuttle 
assembly missions. Using the Station's robotic arm, we installed the S1 
(starboard 1) and P1 (port 1) truss elements and the Mobile Base 
System, which serves as the platform for transporting the robotic arm 
and any attached hardware or experiments to various locations along the 
truss.
    We also performed two extra-vehicular activities (EVA). Space walks 
are a physical challenge, since we work in a pressurized suit that 
protects us from the vacuum of space, but requires us to perform hand-
intensive tasks working against this pressure. EVAs are also an 
operational challenge, especially now while we have only two-person 
crews, since both crew members are outside. From these activities we 
continue to learn a great deal about assembly of Station elements, 
repair of external components, operational processes, and spacesuit 
capabilities.
    As a scientist, it was, of course, exciting being the on orbit 
hands of the investigator teams on the ground. Being the daughter of a 
farmer, I would have to say that the commercial experiment involving 
soybean growth was very, very special to me as well. I also had the 
unique opportunity to be the principal investigator and the subject for 
my own experiment to test potassium citrate ingestion as a mechanism to 
reduce the kidney stone-forming potential in space travelers. In fact, 
I am still working on this experiment, albeit from the ground, with 
Expedition 11 as our primary subjects. A few of the other experiments 
we conducted on Expedition 5 included: super-conducting crystal 
materials with different technical additives and in different heating 
profiles to better assess the crystallization characteristics in an 
environment where gravity is not a variable, assessing pulmonary lung 
function before and after EVA, and developing procedures for diagnostic 
ultrasound capability.
    My background in the human space life sciences provided me with a 
lot of insight into the potential physiologic responses that a crew 
member might anticipate upon entering and returning from microgravity. 
However, I was still surprised by the low back pain as my spinal column 
relaxed, and the surrounding muscles stretched out on flight day four 
and five. Although individual crew responses can vary dramatically, I 
was also surprised by the neuro-vestibular imbalance I felt upon 
returning to Earth's gravity after six months on orbit. For the first 
24 hours, I felt like the world was spinning around me; as if I were 
still on orbit, and I thought they should just send me back to the 
Station. Luckily for me, recovery was relatively quick after that first 
day.
    As a result of a very intensive exercise regime, I lost no overall 
bone density. This is very promising for us in the development of 
exercise programs for extended exploration missions to Mars when we 
will need to have an exercise and/or pharmacologic plan to minimize the 
impacts of extended periods in microgravity.
    We typically train prior to flight for three or more years. Much of 
that time is spent with crew mates in classroom training and 
simulations. I consider this a very important time to learn not only 
about us, but the best way to constructively interact with our crew 
mates and our ground support teams. The loss of Columbia meant that we 
had to reduce the Station crew size to two. As a result, our crews and 
ground teams have come up with creative new methods to squeeze in more 
work and provide better support. Although I had great respect for the 
work conducted by the ground team even before I flew, I was surprised 
by how close I felt to them during my mission. As Mike and John can 
tell you, the ground crew acts as a ``third'' crew member for our two-
person crews by helping them with everything from monitoring the 
Station to assisting with research.
    Safety is something we all take as a fundamental value in how we 
build and operate the Station. An intensive system safety engineering 
effort during the development and manufacture of the International 
Space Station system has mitigated the known hazards presented by 
living in low-Earth orbit. For example, we have design features, such 
as the Micro Meteoroid Orbital Debris (MMOD) shields on the Service 
Module to reduce the chance that orbital debris will penetrate the 
Station. In fact, more of these panels will be installed in the future 
to even further reduce this probability. We have a caution and warning 
system installed to alert the crew to any impending dangers, such as 
fire or pressure leaks that may raise the risk of injury, we have 
emergency equipment on the Station such as fire suppression to reduce 
the consequence of fire, and we have a ``lifeboat,'' the Soyuz crew 
return vehicle, which we can use as a last resort if we have to abandon 
the Station should the living conditions become untenable. Ground-based 
and on-orbit safety-related training are a large part of our pre-
mission preparation and during the mission. In addition, the ground 
team also plays a large role in ensuring the safety of the Station and 
the crew by providing maintenance procedures for both critical as well 
as non-critical equipment, by providing real-time information and pre-
cautions for events like solar flares or by providing feedback on 
exercise regimes.

Expedition 11 Mission

    In April, we sent a new crew to live on the International Space 
Station. Flight Engineer John Phillips and Station Commander Sergei 
Krikalev will perform one space walk, a number of experiments, and 
daily maintenance during their six-month stay. They will greet two 
Russian Progress resupply vehicles, including one that arrives this 
week, and at least one U.S. Space Shuttle flight. They will also 
relocate their Soyuz spacecraft from the Pirs docking port to the Zarya 
docking port in order to free up the Pirs airlock to support the space 
walk.
    During the space walk from the Russian Pirs airlock in September, 
the crew will relocate and recover Russian science equipment.
    Expedition 11 will be on board the Station when Commander Eileen 
Collins and her six crew members launch on the Space Shuttle Discovery 
on the first post-Columbia mission. It will mark the first time since 
the STS-113 mission in November 2002 that a Space Shuttle will arrive 
at the Station. The two crews plan eight days of joint docked 
operations, including the resupply of the Station with several tons of 
food and equipment, as well as three space walks out of the Shuttle's 
airlock by Discovery astronauts.

Expedition 11 Science

    Much of the research activities for Expedition 11 will be carried 
out with scientific facilities and samples already on board the Space 
Station, as well as with new research facilities transported by the 
next two Space Shuttle missions. While most equipment and samples can 
remain on board the Station with minimal or no detrimental effects, a 
few perishable samples will be returned to Earth on the Soyuz.
    The Expedition 11 crew has more than 100 hours scheduled for U.S. 
payload activities. In addition to the crew on the Station, a team of 
controllers for Expedition 11 will work in the Space Station's Payload 
Operations Center--NASA's science command post for the Space Station at 
NASA's Marshall Space Flight Center in Huntsville, Alabama. Controllers 
link researchers around the world with their experiments and the crew 
aboard the Station.
    Other experiments to be conducted by Expedition 11 include:

        <bullet>  Advanced Diagnostic Ultrasound in Microgravity 
        (ADUM):

           Advanced Diagnostic Ultrasound in Microgravity (ADUM) will 
        be used to determine the ability of minimally trained Station 
        crew members to perform advanced ultrasound examinations after 
        using a computer-based training program. Verification of these 
        advanced ultrasound techniques and telemedicine strategies 
        could have widespread applications in emergency and rural care 
        situations on Earth. The ADUM experiment, which uses remote 
        guidance methodologies, has been conducted during Expeditions 
        8, 9 and 10 and is scheduled for completion with the Increment 
        11 crew.

        <bullet>  Foot/Ground Reaction Forces During Space Flight 
        (FOOT):

           FOOT studies the load on the lower body and muscle activity 
        in crew members while working on the Station. Previous portions 
        of this study on earlier increments have provided better 
        understanding of the bone and muscle loss in the lower 
        extremities experienced by astronauts in microgravity. The 
        results of this experiment will help in future space flights, 
        as well as potentially improve our understanding to prevent and 
        treat osteoporosis.

        <bullet>  Dust and Aerosol Measurement Feasibility Test (DAFT):

           DAFT releases particles in the Space Station atmosphere to 
        test the ability of different equipment to measure the levels 
        of dust and air quality. It will help to improve air quality 
        and fire detection in space.

        <bullet>  Hand Posture Analyzer (HPA):

           HPA will investigate the performance degradation of the 
        human upper limb muscle-skeletal apparatus and its 
        morphological-functional modifications during long-term 
        exposure to weightlessness and to study the role of gravity in 
        how people reach, grasp, manipulate, and transport objects.

        <bullet>  Passive Observatories for Experimental Microbial 
        Systems (POEMS):

           POEMS will study the growth, ecology and performance of 
        diverse assemblages of micro-organisms in space. Understanding 
        microbial growth and ecology in a space environment is 
        important for maintaining human health and bioregenerative life 
        support functions.

        <bullet>  A Comprehensive Characterization of Micro-organisms 
        and Allergens in Spacecraft (SWAB):

           SWAB uses genetic techniques for the first time to 
        comprehensively evaluate germs, including pathogens, on board 
        the Space Station, and to study how the germ community changes 
        as spacecrafts visit the Space Station and modules are added. 
        This study will monitor Station modules prior to launch to 
        evaluate sources of new germs and find ways of preventing 
        additional contamination on board spacecraft.

        <bullet>  Crew Earth Observations (CEO):

           CEO takes advantage of the crew in space to observe and 
        photograph natural and man-made changes on Earth, the 
        photographs record Earth surface changes over time, as well as 
        more fleeting events such as storms, floods, fires, and 
        volcanic eruptions. Together they provide researchers on Earth 
        with vital, continuous images needed to better understand the 
        planet.

Summary

    As stated at the beginning of my testimony, using the Station to 
study human endurance in space and to test new technologies will allow 
us to prepare for the longer journeys to the Moon, Mars and beyond in 
support of the Vision for Space Exploration. Thank you for the 
opportunity to testify today. My fellow witnesses and I look forward to 
responding to any questions you may have.

                     Biography for Peggy A. Whitson
                             NASA ASTRONAUT

PERSONAL DATA:

    Born February 9, 1960 in Mt. Ayr, Iowa. Hometown is Beaconsfield, 
Iowa. Married to Clarence F. Sams, Ph.D. She enjoys weight lifting, 
biking, basketball, and water skiing.

EDUCATION:

    Graduated from Mt. Ayr Community High School, Mt. Ayr, Iowa, in 
1978; received a Bachelor of Science degree in Biology/Chemistry from 
Iowa Wesleyan College in 1981, and a Doctorate in Biochemistry from 
Rice University in 1985.

AWARDS/HONORS:

    NASA Space Flight Medal (2002). Two patents approved (1997, 1998); 
Group Achievement Award for Shuttle-Mir Program (1996); American 
Astronautical Society Randolph Lovelace II Award (1995); NASA Tech 
Brief Award (1995); NASA Space Act Board Award (1995, 1998); NASA 
Silver Snoopy Award (1995); NASA Exceptional Service Medal (1995, 
2003); NASA Space Act Award for Patent Application; NASA Certificate of 
Commendation (1994); Selected for Space Station Redesign Team (March-
June 1993); NASA Sustained Superior Performance Award (1990); Krug 
International Merit Award (1989); NASA-JSC National Research Council 
Resident Research Associate (1986-1988); Robert A. Welch Postdoctoral 
Fellowship (1985-1986); Robert A. Welch Predoctoral Fellowship (1982-
1985), Summa Cum Laude from Iowa Wesleyan College (1981); President's 
Honor Roll (1978-81); Orange van Calhoun Scholarship (1980); State of 
Iowa Scholar (1979); Academic Excellence Award (1978).

EXPERIENCE:

    From 1981 to 1985, Whitson conducted her graduate work in 
biochemistry at Rice University, Houston, Texas, as a Robert A. Welch 
Predoctoral Fellow. Following completion of her graduate, work she 
continued at Rice University as a Robert A Welch Postdoctoral Fellow 
until October 1986. Following this position, she began her studies at 
NASA Johnson Space Center, Houston, Texas, as a National Research 
Council Resident Research Associate. From April 1988 until September 
1989, Whitson served as the Supervisor for the Biochemistry Research 
Group at KRUG International, a medical sciences contractor at NASA-JSC. 
In 1991-1997, Whitson was also invited to be an Adjunct Assistant 
Professor in the Department of Internal Medicine and Department of 
Human Biological Chemistry and Genetics at University of Texas Medical 
Branch, Galveston, Texas. In 1997, Whitson began a position as Adjunct 
Assistant Professor at Rice University in the Maybee Laboratory for 
Biochemical and Genetic Engineering.

NASA EXPERIENCE:

    From 1989 to 1993, Whitson worked as a Research Biochemist in the 
Biomedical Operations and Research Branch at NASA-JSC. From 1991-1993, 
she served as Technical Monitor of the Biochemistry Research 
Laboratories in the Biomedical Operations and Research Branch. From 
1991-1992 she was the Payload Element Developer for Bone Cell Research 
Experiment (E10) aboard SL-J (STS-47), and was a member of the U.S.-
USSR Joint Working Group in Space Medicine and Biology. In 1992, she 
was named the Project Scientist of the Shuttle-Mir Program (STS-60, 
STS-63, STS-71, Mir 18, Mir 19) and served in this capacity until the 
conclusion of the Phase 1A Program in 1995. From 1993-1996 Whitson held 
the additional responsibilities of the Deputy Division Chief of the 
Medical Sciences Division at NASA-JSC. From 1995-1996 she served as Co-
Chair of the U.S.-Russian Mission Science Working Group. In April 1996, 
she was selected as an astronaut candidate and started training, in 
August 1996. Upon completing two years of training and evaluation, she 
was assigned technical duties in the Astronaut Office Operations 
Planning Branch and served as the lead for the Crew Test Support Team 
in Russia from 1998-99. From November 2003 to March 2005 she served as 
Deputy Chief of the Astronaut Office. Dr. Whitson currently serves as 
Chief of the Station Operations Branch, Astronaut Office.

SPACE FLIGHT EXPERIENCE:

    The Expedition 5 crew launched on June 5, 2002 aboard STS-111 and 
docked with the International Space Station on June 7, 2002. During her 
six-month stay aboard the Space Station, Dr. Whitson installed the 
Mobile Base System, the S1 truss segment, and the P1 truss segment 
using the space station remote manipulator system, performed a four-
hour and 25-minute Orlan EVA to install micrometeoroid shielding on the 
Zvezda Service Module, and activated and checked out the Microgravity 
Sciences Glovebox, a facility class payload rack. She was named the 
first NASA Science Officer during her stay, and she conducted 21 
investigations in human life sciences and microgravity sciences, as 
well as commercial payloads. The Expedition 5 crew (one American 
Astronaut and two Russian Cosmonauts) returned to Earth aboard STS-113 
on December 7, 2002. Completing her first flight, Dr. Whitson logged 
184 days, 22 hours and 14 minutes in space.

                               Discussion

             Lessons Learned for Long-Duration Space Flight

    Chairman Calvert. Thank you. Thank you for giving us that 
unique perspective on life on the International Space Station.
    I am going to lead off with the questions since I believe 
we have about 15 minutes before we link up with the Space 
Station.
    So Dr. Whitson and Lieutenant Colonel Fincke, I think I 
will ask the first question.
    What kinds of lessons would you draw from your time on the 
Space Station that you think could be applied to our next steps 
beyond Earth orbit or return to the Moon and then going to 
Mars?
    And that question is for both of you.
    Dr. Whitson. Yeah. I will start by saying that during my 
mission, we hosted three different Shuttle flights, and they 
were all very robotically-intensive missions with the 
installation of hardware elements on board the International 
Space Station, large pieces of tress that filled the payload 
bay of the Shuttle, and so it was really exciting to be a part 
of that process of using the Station robotic arm, in one case 
of actually handing off one piece of hardware from one robotic 
arm to the other robotic arm for installation. So that robotics 
capability is going to be something that is important to us 
even in our manned exploration to the Moon and Mars.
    Chairman Calvert. Turn on your mike.
    Lieutenant Colonel Fincke. There you go. Sorry about that. 
I can fly a spacecraft, but I have got to learn how to do one 
of these.
    On our mission, it was Expedition 9. It was the third 
mission of only two people on board. Complete resupply from 
Russian cargo ships. And we launched and landed on a Russian 
Soyuz, so it was a bit different than Peggy's mission. And we 
learned a few neat things that are going to really help us go 
to Mars and back to the Moon.
    We are--we had problems with our oxygen generator, and we 
learned how to work and fix things that we had not trained for 
on the ground. We--Peggy was mentioning this medicine concept 
with the ultrasound machine. Well, we were using tele-
engineering to be able to fix things that were broken. And that 
is an important lesson when we go to the Moon and Mars. We 
won't be able to know how to fix everything all by ourselves, 
but we have a strong team back on our home planet that can help 
us.
    And also, we learned how to fix our own space suits. That 
was the first time we opened up an American space suit and 
changed out parts. And that is the kind of thing we need to 
know when we go to the Moon is how to fix our own space suits. 
So we became more self-sufficient, but also more dependent on 
the ground to count on them for--to help us to be able to do 
the things that we could do while we were up in space.
    Chairman Calvert. Thank you.
    Mr. Udall.

                               Safe Haven

    Mr. Udall. As a follow-on to Chairman Calvert's question, 
we talked a lot about the aftermath of Columbia and the 
Accident Investigation Board. We talked about a safe haven at 
the Station. Could you--both of you talked a little bit about 
what it would be like if the Station served as a safe haven for 
the Shuttle. What would be the challenges you would face, say 
if the Shuttle crew were there for one to two months, hopefully 
no longer than that?
    Dr. Whitson. Actually, before we launch STS-114, the next 
Shuttle to launch, we will understand how much capability in 
terms of crew resupplies, oxygen, carbon dioxide removal, and 
food that we will have on orbit. And we will have a plan in 
place on how long we could withstand keeping that crew up there 
before we could send a rescue mission. And there will actually 
be another Shuttle on the pad ready to go within that time 
frame of when we can support a crew on board the Station. So it 
is not ideal, obviously, but obviously we are not going to 
invoke the--that scenario unless it is a serious situation.

                          Resource Consumption

    Mr. Udall. Doctor, Lieutenant Colonel may respond as well, 
what is the number--the resource that runs out first, is it 
oxygen? Is it----
    Dr. Whitson. Well, actually it is oxygen, but we make the 
assumption that the electron, our oxygen-generating system is 
not working. So it is a--kind of almost a worst case. We have 
taken one failure already and said the electron was not 
working, and so we are starting from that point.
    Mr. Udall. If it is working, is there an unlimited amount 
of oxygen available?
    Dr. Whitson. Then water becomes----
    Mr. Udall. Okay.
    Dr. Whitson.--inconsumable. We use water to break apart to 
make the oxygen. So water then becomes a limiting consumable, 
but----
    Mr. Udall. That's your feed stock, the water is.
    Dr. Whitson. Yeah. Yeah.
    Mr. Udall. Okay. Interesting. Oxygen is in the water. 
Everything stems from water, doesn't it?
    Dr. Whitson. Yeah.
    Mr. Udall. Did you want to say anything else, Lieutenant 
Colonel Fincke?
    Lieutenant Colonel Fincke. Certainly. I would like to add 
that the Space Station right now is really designed, and has 
enough capability, for three people. To increase by--and we 
have two on board. By increasing to six people, we are going to 
have to have all of our systems running at full bore, all of 
our oxygen-generation systems and the carbon dioxide-removal 
system and things like that. And the engineers on the ground 
have really looked hard into this and made some assumptions 
of--towards the worst case, and we can definitely support--the 
Space Station can support for short periods of time, enough 
time to get another Space Shuttle up there, and that is good 
news for our friends in the astronaut corps.
    Mr. Udall. Even with the converter--the oxygen converter 
down, two months is within the time frame?
    Dr. Whitson. Actually, I think the latest estimate they 
were supposed to report that in the last couple of days, and I 
am sorry I don't know that number, but it is on the order of 30 
days.
    Mr. Udall. Okay. What about space? I don't hear you talking 
about any problems with space in the Shuttle itself.
    Dr. Whitson. Well----
    Mr. Udall. More crowded?
    Dr. Whitson.--the Shuttle is actually very crowded 
normally, but the Space Station will be much more crowded than 
it would be normally, but----
    Mr. Udall. Yeah.
    Dr. Whitson.--it is six different modules on orbit, each of 
various size, but there is plenty of room for the seven Shuttle 
crew members and an additional two Station crew members, if we 
needed to do that. And obviously this is a worst case scenario. 
This is not a scenario that we would plan to do except for a 
scenario that required it to save the lives of our crew 
members.
    Mr. Udall. Thank you, Mr. Chairman. I want to give other 
Members an opportunity, so thank you.
    Chairman Calvert. I thank the gentleman.
    Mr. Bonner.

                 Effects of Long-Duration Space Flight

    Mr. Bonner. Thank you, Mr. Chairman.
    I hope that the people who are in this hearing room, 
especially those who might be viewing it today on C-SPAN, 
realize how historic this is that we have got the first witness 
before our committee in Congress that is not here, but is in 
outer space.
    Dr. Whitson, you were, as I recall from reading your 
biography, in space for 184 days. That is a long time to be 
away from home. And so much is made of these missions about the 
effects on our body, the physical effect. What were the 
psychological issues that you dealt with in space and then when 
you returned home that you dealt with in returning home? And 
talk to us a little bit, please, about the psychological 
aspects of space travel.
    Dr. Whitson. Well, I may be a little bit unique in that I 
loved every minute on board the Space Station. It was a 
phenomenal experience to me being there I think probably 
because I had wanted to do it since I had walked--watched the 
astronauts walk on the Moon. I have always wanted to be an 
astronaut. When I graduated from high school, it was the first 
year they selected female astronauts, and that is when I 
decided I wanted to be an astronaut. Luckily for me, I didn't 
know how hard it would be to get in, but I got lucky and I made 
it. The psychological part of being in space is actually 
probably less traumatic than the months and the years actually 
leading up to it in the training process. We do about half of 
our training in Russia, so we are away from our families a 
month or two at a time back and forth. And so I think 
psychologically that is kind of the building block for families 
to build those relationships to be able to withstand going to 
space for six-month periods of time. I tell my Expedition crew 
members in training, ``This is the test. If you can make this 
work then being on board the Station is so much easier, because 
once you get there, you have such an interesting job, the best 
one off of this planet.'' So we--I really enjoyed that 
experience. I think probably the only long-lasting 
psychological impact that I have after returning to Earth is 
that I really, really want to go back.
    Mr. Bonner. Lieutenant Colonel.
    Lieutenant Colonel Fincke. I think Peggy is not unique in 
that she enjoyed her 184 days. I enjoyed my 187 days I hope as 
much as she did. It was an amazing experience on an amazing 
Space Station. There were only two of us on our mission and so 
there was less company, but we got along great. My commander 
from Russia and I, we got along. He spoke to me every day in 
English, and I spoke to him in Russian. We saw each other eye 
to eye, and looking outside at the beautiful planet below, we 
never really got grumpy, because any time we felt anything sad 
or bad, we just looked outside. But we also had a space 
telephone, and we could call down and keep in touch with our 
families. And while I was on board the Space Station, my wife 
had our second child, our daughter, who was born while I was up 
there, and this is not unique to service families that are all 
over serving our country across the world, but this was unique 
in that is the first time it happened to an astronaut in space. 
But I was able to talk to my wife up to the point where labor 
was happening and keep in touch for those, you know, days 
afterwards when we were happy as a couple to be able to, you 
know, welcome our daughter into the world. And so a lot goes to 
our families for supporting us while we are in training in 
Russia and training--and flying in space. But the psychological 
aspects, it felt like we weren't that far away from home.
    Mr. Bonner. If I may ask just a quick follow-up to both of 
you. When most Americans travel away from home for 10 days or 
two weeks and they get back home, the first thing they want to 
do is have X or Y. What was it for you? Was it a Big Mac? Diet 
Coke?
    Dr. Whitson. For me, I wanted a steak and a salad.
    Lieutenant Colonel Fincke. And I was looking forward to my 
mother-in-law's cooking. She came all of the way out to Russia 
to cook me a nice Indian meal.
    Mr. Bonner. That is a very good, politically correct 
answer, Lieutenant Colonel.
    Thank you, Mr. Chairman.
    Chairman Calvert. Thank you.
    Mr. Bartlett.

                     NASA's Role in Inspiring Youth

    Mr. Bartlett. I can remember very well when the Soviet 
Union launched their first Sputnik. I can remember the 
excitement, October sky, watching that sky for the satellite to 
go over. I remember when President Kennedy challenged the 
Nation to put a man on the Moon within a decade. That was a 
big, big challenge, and we did it in something less than a 
decade. I remember trying to stay up at night to watch the 
video of the Moon landing. And somehow, since the excitement of 
those days, space flight has become kind of ho-hum, and it is 
because, I think, NASA has been so successful that the American 
public has been led to believe that this is a pretty routine, 
unexciting thing. And there are two deficits that have occurred 
because of that.
    One is we aren't able to get the kind of funding that we 
need for NASA and our space programs, particularly our manned 
programs, because they don't have the excitement that they once 
had for the American people.
    The other deficiency is that we desperately need something 
in our country that captures the imagination of our people and 
inspires our young people to go into careers of science, math, 
and engineering. Putting a man on the Moon really did that. I 
remember a cartoon I saw, a little freckle-faced, bucktoothed 
kid. He said, ``Six months ago, I couldn't even spell engineer 
and now I are one.'' You know, everybody wanted to be a part of 
that program.
    It really is very hazardous duty. We have only--there is a 
one chance in 50 you are--roughly one chance in 50 you are not 
going to make it, if the past is going to predict the future in 
terms of our space flights. Is that not correct, two out of 100 
and some missions? Is that right? And so what have we done, or 
what should we have done differently so that it didn't lose its 
luster, so that this was still exciting, so that people were 
still riveted to their television sets, so that our kids still 
wanted to be a scientist, mathematician, or engineer, or an 
astronaut? And you know, we are paying for that as a nation now 
because we have far too few of our kids going into those 
disciplines. How did we fail, and what do we need to do now so 
that we can recoup?
    Dr. Whitson. Well, that is a pretty big question, and I 
wish I had the answer in my back pocket on that one.
    I am not sure how we failed. I do think it is just as 
critically important now as it was in the 1960s. I mean, I was 
inspired. But every time I go out to talk to young school 
children, you know, I feel it is my job to at least convince 
one of those young people that they can do something that they 
didn't think they could before I came.
    Lieutenant Colonel Fincke. One of NASA's three main mission 
statements is to inspire the next generation of explorers, as 
only NASA can. And I would certainly hate to be a witness and 
disagree with you, sir, but every school that I have gone to, 
and since I have come back from space I have talked to over 
16,000 school kids across our country, and I haven't found 
anybody that was not interested in space and not interested in 
what we did aboard the Space Station and who didn't laugh when 
the Commander's hair stuck up and watching us play with our 
food and all of the joy and wonder and imagination to go fly in 
space. And I think that imagination is still among our youth, 
and it is just up to us to just close the loop and let them 
know that, you know, America is the land of opportunity and 
you, too, can be an astronaut or an engineer or a mommy or a 
daddy or whatever it is that you want to be when you grow up, 
because this is the place where dreams come true. And I think 
NASA is doing that.
    Mr. Bartlett. But it would be nice if we could translate 
that excitement that you generate in the classroom to more of 
our kids going into science, math, and engineering, because it 
is not happening, and that is our challenge. You go to our 
schools, like technical schools, and more than half of the 
students there are foreign nationals. And our country--our 
companies now are wanting more immigrants to come in because 
they can't find enough scientists, mathematicians, and 
engineers in this country.
    So you know, thank you for inspiring our school children. I 
hope that it is reflected with an increased number of our young 
people going into these careers.
    For the short-term, it threatens our economic superiority. 
For the long-term, it threatens our military superiority. We 
have got to have adequate numbers of bright young people going 
into science, math, and engineering. And you all are voices 
that are helping us do that. Thank you very much for the 
contribution that you are making.

                           Language Barriers

    Chairman Calvert. I see we have been joined by our friend 
from Louisiana. If you would like to ask a question before we 
tune into our friend in outer space--well, I am just going to--
we still have a few minutes, so I am going to ask a question.
    I was listening to Colonel Fincke when we were talking 
about use of language. Is that much of a barrier? Is that a 
significant issue when you are up there in outer space? Do you 
understand each other pretty well or--I guess my question is, 
is everybody taking--at NASA, is everybody learning Russian and 
everybody in the Russian astronaut corps learning English?
    Lieutenant Colonel Fincke. Well, Mr. Chairman, like in any 
organization, communication is fundamental to mission success.
    Chairman Calvert. You have a point. I have a hard time 
understanding some of the members I serve with here, so----
    Lieutenant Colonel Fincke. And really, that is--so whatever 
language it takes, we have learned to communicate with each 
other on board. And we have learned to communicate with the 
long partnership with Russia to communicate with each other. 
And sometimes, like any other organization, the communication 
isn't perfect, but I think, for the most part, we really 
understand each other. And that is really fundamentally why 
things aboard the Space Station are a success is because we 
have good, solid working relationships. We know each other's 
strengths and weaknesses, and we have built off of that and 
have worked together as a team. Now it is not a perfect team. 
Sometimes there is a little bit of grumbling and the press 
loves to talk about that, but if you look at it right now, and 
you are going to see, you know. Dr. Phillips is up there with 
Sergei Krikalev working together in space, and that is a really 
nice symbol for all of us to see people working together.
    Chairman Calvert. Any add-on to that, Doctor?
    Dr. Whitson. Well, I would just like to say that in 
addition to the interpersonal requirements of doing something 
like building the International Space Station, there is also an 
incredible engineering level of interaction that is required. I 
think it is somewhat miraculous that we have done such an 
incredible job building the Space Station. As was mentioned a 
little bit earlier, sometimes we maybe make it look a little 
too easy. It really is quite miraculous that we have gotten all 
of these pieces together.

                              Space Suits

    Chairman Calvert. Quite an engineering feat. I always--
people ask me why do you have two different space suits when 
you are up there? Is that make--does everything match up when 
you have the cosmonaut in one space suit and the Americans, of 
course, in our own space suit?
    Dr. Whitson. For any given EVA, we use the same space suit, 
but there are some tasks that we do on the U.S. side that we 
use the U.S. space suit for and some on the Russian side. Mike 
has a unique perspective on that from his real life experience.
    Lieutenant Colonel Fincke. By having two sets of things, 
the redundancy it makes our engineering plan--to give us 
success. In other words, we were getting ready to go outside in 
American space suits, and we were going through a dress 
rehearsal, and it turns out that his American space suit was 
broken. We ended up fixing it by the end of the mission, but 
because we had a spare set of space suits built by the 
Russians, they didn't have the same problem, and we were able 
to go up just a week or two later in the Russian space suits 
and accomplish the task. And that just goes to show having 
strength of a partnership and having the redundancy aboard the 
Space Station is teaching us those lessons that we need to so 
when we go back to the Moon and Mars we are taking note of all 
of this.
    Chairman Calvert. Great. Well, I understand that we are 
getting down to about the--at about one minute. So I will ask 
Mr. Udall if you want to ask anything in the minute we have 
remaining?

                               Radiation

    Mr. Udall. Talk a little bit, if you will, about the 
radiation concerns on the Station and what you do about it, and 
if we have any more time, what we project out on the Moon or on 
Mars when it comes to radiation exposure.
    Dr. Whitson. On board the Space Station itself, we actually 
have radiation monitoring hardware with alarm systems that will 
tell the crew if it is getting into a hazardous level. But 
before that ever happens, the ground typically will warn the 
crew that we anticipate that the radiation levels will go 
higher at a certain point in time and recommend that they would 
go----
    Chairman Calvert. If I may interrupt, I think we are ready 
to go.
    Doctor, I think you need to connect with the Station.
    Dr. Whitson. Station, this is Peggy with the Subcommittee 
on Space and Aeronautics. How do you read?
    [No response.]
    Dr. Whitson. John, this is Peggy with the Subcommittee, how 
do you read?
    [No response.]
    Dr. Whitson. John? John, this is Peggy, how do you read?
    [No response.]
    Dr. Whitson. There you are talking to him on the other 
channel.
    Dr. Phillips. Very good.
    Dr. Whitson. We have you loud and clear. How do you read 
us, John?
    Dr. Phillips. I hear you, Peg.
    Dr. Whitson. Okay. Great. I am going to hand you over to 
Chairman----
    Dr. Phillips. Loud and clear.
    Dr. Whitson. Excellent. We are going to hand you over to 
Chairman Calvert now.

         Lessons Learned for Long-Duration Space Flight (cont.)

    Chairman Calvert. And now we go live from space, 
International Space Station, with Dr. John Phillips.
    Doctor, I asked the same question to your two colleagues. I 
want to ask you the same question that I asked them. What kinds 
of lessons would you draw from your time on the Space Station 
that you think could be applied to our next steps beyond Earth 
orbit and for our return to the Moon and then going on to Mars?
    Dr. Phillips. Yes, sir. First, welcome aboard the 
International Space Station. It is my pleasure to welcome 
aboard the ladies and gentlemen of the House Subcommittee on 
Space and Aeronautics. Since I am a former Navy guy, I feel an 
obligation to welcome you aboard.
    I appreciate the opportunity to talk.
    Well, I have been here about two months now, and I have 
learned lessons, and we have learned lessons every day. And I 
would like to emphasize that up here on the International Space 
Station, we are the experiment, not only we, the crew, but the 
vehicle, the equipment on it, our operations concept, our 
mission control operations, and even our international 
partnership. And I--what I have learned, I believe, is that we 
need to build equipment with as much attention to the low 
maintenance, as much attention to reliability as possible, and 
we need to keep doing what we are doing with our multiple 
layers of redundancy. We take safety very seriously, and we 
build things with an eye to a redundancy, multiple pipelines, 
multiple equipment that does the same thing. And if one thing 
fails, we have got another to back it up. And I think we have 
used that approach to very good success on the Space Station, 
and I want to see us keep doing it in the future in our next 
missions as well.
    Chairman Calvert. I thank the gentleman for his answer, and 
I will move on to our--to Mr. Udall who leads the Minority, 
from Colorado.
    Mr. Udall. Dr. Phillips, this is Mark Udall. I represent a 
portion of Colorado, including half the ski areas. I am sure 
you can see all of the snow in Colorado that we have had over 
the winter, which means great water supplies for my friend from 
California and others in the southwest.
    Chairman Calvert. Thank you.

                       ISS and the View of Earth

    Mr. Udall. Wax philosophical and talk a little bit about 
what the view is like both looking into space as well as back 
at the Earth.
    Dr. Phillips. Well, as luck would have it, we traveled over 
Colorado a couple of hours ago, and I shot some pictures 
starting from the Sawtooth Mountains in Idaho and then down 
through Wyoming and across the front range in Colorado, and it 
was very beautiful, and I can see here that you had a good snow 
year.
    The view is incredible from up here. And by the way, right 
now, we are moving southeast, more or less parallel to the 
coast of California in the north Pacific. We will be heading 
down along the Baja. The view is incredible. We get the white 
snow and the blue oceans and the tan deserts and the green 
forests, and what it brings home to me is that we are a pretty 
small planet, we are all one people, and we need to conserve 
the resources we have, and make sure we work together to make 
this place a livable for many generations to come.
    Chairman Calvert. I thank the gentleman.
    Mr. Bonner, you are recognized for two minutes.
    Mr. Bonner. Dr. Phillips, my name is Joe Bonner, and I am 
from Mobile, Alabama, and my home state is very proud of its 
role in manned space flights.
    The Chairman has only given us two minutes to ask our 
question, and normally those of us from the South, it takes two 
minutes just to get our name out, so my question to you is very 
brief. After all of your training and preparation and now that 
you are there, what was your biggest surprise being on board 
the Space Station and living in outer space?
    Dr. Phillips. Well, I think my biggest surprise up here, 
and I have been here, by the way, once before on a shorter 
Shuttle flight, my biggest surprise I think was how much work 
goes into the preparation for visiting vehicles. For example, 
just 15 minutes ago, Commander Russian cosmonaut Sergei 
Krikalev, closed the hatch on a Russian supply ship, about to 
say goodbye to that ship, and then we are going to get another 
one in a couple days. And it takes a lot of work to pack that 
Progress vehicle with the stuff we don't need anymore and to 
unpack, and then as soon as we get the new one aboard in just a 
few days, then we are going to start in earnest preparing to 
support the launch of the Shuttle Discovery and its mission to 
dock here on Station. And that is just a whole lot of work, and 
for a couple weeks, it really dominates our activities up here.
    Chairman Calvert. I thank the gentleman.
    The gentleman from Louisiana, Mr. Melancon.
    Mr. Melancon. My only question, and this is Congressman 
Charlie Melancon from Louisiana, is are your feet strapped down 
so you are not floating?
    Dr. Phillips. Yes, sir. They are not--well, they are not 
strapped down. Right now, I am not wearing any shoes. We only 
wear shoes, pretty much, for exercise, but I have got my 
stocking clad feet tucked under a railing on the floor, because 
if I didn't do that, I would just kind of float around like 
this.
    Mr. Melancon. That is what I was talking about.
    Thank you.
    Chairman Calvert. I thank the gentleman.
    The gentleman from Maryland, Mr. Bartlett.

                               ISS Orbit

    Mr. Bartlett. Hi, this is Roscoe Bartlett from Maryland.
    Could you tell us what type of an orbit you are in, the 
altitude and the parts of the world that you see from your 
orbit?
    Dr. Phillips. Sir, we are in nearly a circular orbit at a 
speed of about eight kilometers per second at an altitude of 
350 kilometers right now. That is near the lower range of our 
orbit. Sometimes it is a bit higher. It takes us about 90 
minutes to go around the Earth. And we are in an orbital 
inclination of 51.6 degrees, which is dictated by the fact that 
basically half of the Station plus our Russian Soyuz vehicle 
and supply vehicles are launched from base in central Asia 
that, for various orbital reasons, needs to launch to that 
inclination. And what that means is we see all of the Earth, 
the low latitudes of maybe a little bit higher than our 
inclination, maybe about 55 or 57 degrees. We can see that far 
north and that far south. And actually my crewmate, Sergei 
Krikalev, is taking pictures of his hometown of St. Petersburg, 
which is nearly at 60 degrees.
    Chairman Calvert. I thank the gentleman.
    Mr. Costa from California.

                             ISS Completion

    Mr. Costa. Thank you very much, Mr. Chairman.
    Congressman Jim Costa from California from Fresno.
    Dr. Phillips, obviously we are pleased that you could be 
here today for this presentation. You know, oftentimes the 
question is asked for what purpose is the Space Station. When 
we look at our nation's budget priorities and we look at our 
nation's priorities with regard to our space program, both the 
manned and the unmanned space program, today, as you sit there 
from your vantagepoint, what percentage of the Space Station is 
completed? And when it is completed in its entirety, what do 
you believe the capabilities of the Space Station will be as we 
try to answer the question toward these priorities?
    Dr. Phillips. Well, thanks for your question, sir, and by 
the way, I used to, I believe, live in your District down in 
the Navy base of Lemoore, California.
    Mr. Costa. It is a great Navy station.
    Dr. Phillips. I have fond memories of that place.
    Mr. Costa. I hope you are still registered to vote there.
    Dr. Phillips. And I would guess that the Station is maybe a 
little over half completed. I am just making up--we have got 
some more large pressurized modules to build. There is a 
laboratory from Europe and a laboratory from Japan. And excuse 
me, I just said the wrong thing. They are already built, but we 
have some more pressurized modules to launch. And then we have 
got a lot of other big pieces waiting at Kennedy Space Center 
right now for the resumption of Shuttle flight.
    Eventually, we expect to have a crew of six up here, and 
right now, with Sergei and I with a crew of two, much of our 
work--although we are doing scientific experimentation as well. 
When there are six people on board, there will be a lot more 
scientific experimentation, experimentation designed to advance 
our knowledge in combustion, and material science, in biology, 
and I believe most importantly, just to advance our knowledge 
in how to push further into space.
    I would like to mention that the International Space 
Station is maintaining our presence in space and maintaining 
our national credibility as a worthy partner in an 
international technical project. We constantly learn new 
lessons up here about hardware, software. The experiences we 
gather up here that will enable us to establish a long-term 
station on the Moon and to go on to Mars.
    Mr. Costa. Thank you very much, Mr. Chairman.
    Chairman Calvert. Thank you.
    Mr. Rohrabacher.

                      ISS Research Accomplishments

    Mr. Rohrabacher. Hello. I am Congressman Dana Rohrabacher 
from California, Huntington Beach, California. And greetings.
    Okay. I will proceed.
    We have learned a lot about human habitation of space by 
what we have done at the Space Station and by you and others 
who have spent time there. You are right there right now. Could 
you tell us if you believe that there is any further commercial 
potential for Space Station? And number two, you mentioned the 
research potential a few moments ago. Could you go into some 
specific detail about what type of accomplishments--research 
accomplishments we could expect if we continue supporting the 
Station?
    Dr. Phillips. Well, sir, as I mentioned, right now our 
experimental time is somewhat limited, but I am going to give 
you an example of an experiment we are working with. It is 
called advanced diagnostic ultrasound in microgravity. Now this 
experiment uses medical ultrasound and high data--plus a team 
of specialists on the ground to enable non-specialists like me 
to provide state-of-the-art diagnostic imaging of heart, lungs, 
abdomen, and arteries. This has great potential for use in 
remote areas in places where you don't have diagnostic 
specialists and for military uses on battlefield diagnostics, 
for example. That is an example of one kind of experiment we 
are going to do--we are doing up here now. When we have three 
full operational laboratories, the Japanese, European, and 
American laboratory up here with teams of scientists working in 
those labs pretty much full time, I believe we will have the 
potential for advancements in pharmaceuticals, for example, and 
we have pharmaceutical research going on right now, and also 
material science. I think those are the two biggest areas. It 
is hard for me to put--to predict the kind of results of these 
things, but I want to emphasize once more that from my 
perspective, the most important thing up here is that we are 
the experiment. We are learning how to fly in space.
    Mr. Rohrabacher. Thank you very much.
    Chairman Calvert. Thank you very much.
    Mr. Miller, I think we are going to break up, but try to 
get as much in as you can.

              The Impact on ISS From the Shuttle Grounding

    Mr. Miller. Yes, this is Brad Miller from North Carolina.
    What has been the impact on your mission of the grounding 
of the Shuttle fleet? Has that affected your procedures in any 
way?
    Dr. Phillips. I would describe the gravity of the Shuttle 
fleet in sort--first and foremost, the assembly, as I have 
mentioned, there are tresses, solar rays, and new pressurized 
modules as well as a lot of laboratory equipment and spare 
parts waiting at Kennedy Space Center in Florida to be 
launched. Two of the modules scheduled for launch in the next 
couple of years are laboratories that belong to Japan and 
Europe.
    The second impact, the use of ISS has been limited to two 
persons since the Columbia accident with the limitations on 
delivery of consumables, such as oxygen, water, and food.
    Third, although our Russian partners have done an admirable 
job in keeping the Station supplied, without the Shuttle, we 
have been operating on somewhat--there are certain spare parts 
that can only be delivered by the Shuttle, plus only the 
Shuttle has the capability of carrying large cargo back to 
Earth. So we are really looking forward to seeing the Discovery 
about a month from now.
    Chairman Calvert. I thank the gentleman.
    Mr. Green.

                          Russian Cooperation

    Mr. Green. Thank you, Mr. Chairman.
    Dr. Phillips, I had the good fortune about two weeks ago to 
be in Russia and to meet with the Deputy Head of the space 
agency. One of the things that we talked about was the great 
spirit of cooperation that has been engendered as a result of 
this noble mission that you find yourself a part of. Could you 
kindly make some comments about the spirit of cooperation that 
has manifested itself as you go about your business there in 
the outer part of our world?
    Dr. Phillips. Speaking from the standpoint of an astronaut, 
not a manager, not a negotiator, I would say that cooperation 
is wonderful. I have got my crewmate, Sergei Krikalev, 10 feet 
away from me right now. We work together and live together. We 
did about 50 percent of our training in the United States and 
50 percent in Russia, and it is almost a situation without 
boundaries. We go from one to the other, trained equally well. 
And we--just this morning, we have both been talking to our 
mission control center in Houston, our mission--our American 
payload center in Huntsville, Alabama, and our mission control 
center in Moscow. So I think, from an operational standpoint, 
our two countries have really merged their programs very, very 
well. And I can't really speak to the diplomatic and financial 
negotiation end of it, because that is way above my pay grade.
    Chairman Calvert. I thank the gentleman.
    Ms. Jackson Lee, any last questions?

                                 Safety

    Ms. Jackson Lee. Thank you.
    Congresswoman Jackson Lee from Houston, Texas. Johnson 
Space Center is in our neighborhood.
    Thank you for your service.
    My question is how comfortable are you with the safety 
record of the International Space Station and are you seeing 
improvement in the safety review and, of course, the quality of 
safety on the Station?
    Thank you.
    Dr. Phillips. I have always been confident about the 
quality of safety up here. We take safety very seriously. We 
safeguard our health through an exercise program involving 
bikes, treadmills, resistive devices. We have multiple levels 
of redundancy. I think one of the lessons that was brought home 
from the Columbia accident is that we have got to stamp out 
complacency wherever we find it. We have got to remember that 
this is a risky business, not like getting on an airliner. We 
strap ourselves on rockets, and it still has some risks. I 
think our safety record on the Station has been good since the 
onset, and I think it is continuing to improve.
    Chairman Calvert. I want to thank you, Doctor, for your 
hospitality and allowing us to visit with you up there in outer 
space and for answering our questions. We have about 10 seconds 
left, so I wanted to say goodbye, and would love it if you said 
goodbye to us, too. Be safe.
    Dr. Phillips. I thank you very much, sir. And it has been a 
pleasure talking to the ladies and gentleman of the Committee, 
from the testing module in the American laboratory aboard the 
International Space Station, I hope you have a wonderful day 
down there in Washington. The weather is great up here.
    Chairman Calvert. It is probably clearer there than it is 
here.
    Thank you. God bless, and I guess we are out.
    Dr. Phillips. Thank you very much, sir. International Space 
Station out.
    Johnson Space Center. Station, this is Houston ACR. That 
concludes the event.
    Chairman Calvert. Well, that was exciting.
    Mr. Udall, you are recognized for a question.

                        Research Aboard the ISS

    Mr. Udall. Would you talk a little bit more about the 
research possibilities as well as, perhaps, some of the 
experiments you conducted and some of the lessons that you have 
learned, Dr. Whitson, Lieutenant Colonel?
    Dr. Whitson. Sure, I think John introduced it very well. 
Sometimes it is very hard for us to predict what the outcome is 
and what will be the best research to do on board the Station. 
That is true of research here on the ground as well. Sometimes 
the most interesting questions are, ``I wonder why that 
happened.'' But I think, you know, there is a lot of potential. 
I had the opportunity to work on zeolite crystal formations. 
Zeolites are used in petroleum processing and in pollution 
control, and we actually used them on board the Space Station 
as part of our carbon dioxide removal system. I had the 
opportunity to melt superconductor crystals under different 
conditions to try and optimize crystal growth and get the 
biggest superconductor crystals possible. And John talked about 
the--ultrasound is another one that obviously also has direct 
ground applications as well.
    Anything to add, Michael?
    Lieutenant Colonel Fincke. One thing there was a big 
difference between Dr. Whitson's mission and the one I was on 
was they--we didn't have as much cargo mass up and cargo mass 
down, so even though we could have done some really very 
interesting experiments, we couldn't bring down all of the 
results. So we have learned, during the two-person crew post-
Columbia missions of how to send down video at higher 
qualities. We have learned how to do--make due with the 
experimental materials we have on board and to do research that 
way and to also get the high-quality results down without 
actually having to send down the pieces, the experimental 
samples themselves. However, when the Space Shuttle starts 
flying again, and it is going to fly again soon, it is going to 
represent a big boom in the capabilities of science, because we 
will be able to take up a whole bunch of experiments that have 
been waiting and bring down the experimental results that are 
on board right now.

                               Radiation

    Mr. Udall. If I could, I would like to go back to the 
radiation question that we--but I do want to just mention that 
I thought Dr. Phillips and you--both of you have been very 
compelling in pointing out that the whole enterprise is an 
experiment. Sometimes we are looking for these specific 
outcomes, but just the fact that we are there and have been 
there for as long as we have been there is a case and a story 
we ought to continue to tell. It is pretty remarkable what we 
have succeeded in doing.
    The--I have read concerns expressed on the radiation 
question that it is still undetermined to what extent we can 
live on a place like the Moon or Mars given the potential 
radiation exposures. You were talking a little bit about the 
Station and what you do. You have suits that you put on and so 
on when there would be radiation episodes. But would you just 
talk in the two minutes we have remaining about the radiation 
and your concerns?
    Dr. Whitson. Sure. As I mentioned, we have procedures on 
board to minimize the effects of the crew, but the 
magnetosphere of the Earth actually provides a lot of radiation 
protection to us, so even understanding this, we have to take 
it another level up to understand the risks that we are going 
to be taking on the Moon and on Mars. And radiation shielding 
is going to be one of the important factors in whatever 
vehicles we develop, whatever modules we have, you know. We may 
have to--we may choose to do safe havens, you know, within a 
small compartment area, because that might be logistically 
easier to accomplish. So--but we do have to do some sort of 
radiation protection in our future missions. It is going to be 
critical, because it is a much higher radiation level outside 
the Earth's magnetosphere. And even in 250 miles, we are still 
protected, even though it is much higher than it is here in 
Washington, DC.
    Mr. Udall. There might be some people saying there is a lot 
of radiation in this town, but Lieutenant Colonel.
    Lieutenant Colonel Fincke. Once we get on to a planetary 
surface, and that is the trick, we can actually use some of the 
resources there. We can--I don't want to say live underground 
on the Moon, but we can use some of the lunar regolith, the 
soil that is there, and use it to help protect us. And some of 
the tricks that we are going to learn on the Moon are going to 
be applicable to Mars, because Mars doesn't have a 
magnetosphere to protect it like we do here on planet Earth. So 
there are a lot of tricks and a lot of neat things that we 
don't even completely understand now, but we are going to 
understand as we take this voyage together.
    Mr. Udall. The experiment would continue on the Moon?
    Dr. Whitson. Exactly.
    Mr. Udall. Thank you very much. Again, I am in awe of your 
service and your commitment to pushing the envelope, looking 
out over the horizon. Thank you.
    Chairman Calvert. I thank the gentleman.
    Mr. Bonner.

                     Benefits of Human Space Flight

    Mr. Bonner. Mr. Chairman, thank you.
    I would like to follow-up with the question that 
Congressman Bartlett asked both of you but phrase it a little 
bit differently.
    Clearly, I grew up watching Apollo as well. It was a 
community-wide event. We would all go to the house that had the 
color TV, if we were fortunate enough to have one in our town, 
to sit and watch, as a community and as a nation and as a 
world, in awe of what was happening. And perhaps because you 
all were so successful and your predecessors were so 
successful, we did begin to take things for granted until 
tragedy came our way.
    I guess my question to you is, there are a lot of media 
here, this is being broadcast on C-SPAN. You have got four 
minutes and 16 seconds to give a PSA on the advances in 
arthritis, the advances in aging, advances in kidney stone that 
NASA has played a role in helping our physicians, our 
scientists, our engineers here on Earth make big progress up in 
space.
    Dr. Whitson. Well, it is always kind of awesome to try and 
think about all of the different things that we have actually 
had input into in terms of sensor technologies that applied in 
medical scenarios. But one of the more interesting stories I 
always like to tell is the one about the development of the 
artificial assisted heart pump, because that developed because 
they needed a mechanism to reduce the bubbling flow in the 
artificial hearts. And they used similar technologies that we 
used in the engines on the Shuttle. And so it is actually a 
very indirect application of some engineering thing that we 
learned to go to space that was applied to people's--saving 
people's lives and giving them an artificial heart until they 
could get a transplant.
    So there are just some really interesting stories out 
there. I hope that some of the experiments that I was involved 
in will have some potential payoff in the future. I think in 
particular, on my study, on the renal stones, we are interested 
in applying something that we know here on Earth and hopefully 
maybe there will be some payback later on after we have tested 
it in zero gravity as well.
    Lieutenant Colonel Fincke. I am a pretty healthy guy, but 
aboard the Space Station for 187 days and 24 hours--21 hours, I 
lost a fair amount of bone mass, roughly about six percent, and 
I exercised a lot. In fact, that is what we have seen with 
humans in space is we lose, without gravity, now matter how 
hard we exercise, somewhere between one and two percent of our 
bone mass per month. Now that is accelerated osteoporosis. And 
by understanding that--and fortunately it all came back for me, 
but by understanding how we lose it, the mechanisms, and how we 
can get it back, is very important to a lot of our population 
who are suffering with osteoporosis right now. There is a 
direct tie. We--on our mission, we were the first mission to 
actually image our bones as they changed over time with this 
ultrasound machine that we have been mentioning. So these are 
some direct applications to the science of osteoporosis.
    But space is definitely an investment in the country's 
future. When I was up there, I saw four hurricanes--or 
actually, I saw them all last summer, and John is going to see, 
unfortunately, some this year. But it--I always reflected that 
we lost very few people's lives, especially American lives, 
because of the space program. We knew ahead of time that these 
hurricanes were coming. Back in the 1940s and 1950s, you would 
only get 18 hours. Now we let people know when hurricanes are 
coming days in advance. They have a chance to pack up their 
stuff and move if they need to or batten down wherever they 
need to. So this space technology is protecting lives every 
day, especially during the summer hurricane season on planet 
Earth.
    Mr. Bonner. Well, as someone who experienced one of those 
hurricanes in my back yard, I want to thank you, because that 
is a very good point. We were able to, with advanced notice, 
avoid the loss of life that we saw, for instance, in the 
tsunami. So thank you both for what you do and for what you 
have done.
    Thank you, Mr. Chairman.
    Chairman Calvert. I thank the gentleman.
    Mr. Costa.

                     ISS Configuration and Schedule

    Mr. Costa. Thank you very much. And I am not sure if this 
question is appropriately addressed to Dr. Whitson or 
Lieutenant Colonel Fincke. What I asked Dr. Phillips about the 
level of completion of the Space Station currently, I thought 
he said approximately 40 percent plus. What is the exact level 
of completion currently today? And it goes to my larger 
question that is under the timeline that we are currently 
looking at when the--hopefully the Shuttle becomes operative 
again here in the next couple of months, when do we believe 
that we will be able to complete the Space Station to then have 
the full complement of the six persons on the Station and to be 
able to take advantage of all of the capacity that is--we hope 
is built into the Station to perform not only the science but 
the additional research that has been contemplated?
    Dr. Whitson. It will take approximately six Shuttle flights 
to complete the assembly of the truss element, which holds the 
solar rays on either end. And that capability will allow us to 
add on the different laboratory--the two additional laboratory 
modules and then connecting node modules. So there will be 
three more additional large modules in addition to the six 
already on orbit.
    Mr. Costa. So that is nine Shuttle flights?
    Dr. Whitson. Yes.
    Mr. Costa. Okay.
    Dr. Whitson. Yes.
    Mr. Costa. Over what length of time?
    Dr. Whitson. Well, the Shuttle assembly rate is something 
that I think a lot of folks are working on now, and we will do 
whatever we feel is safe and----
    Mr. Costa. I understand that part. Yeah.
    Dr. Whitson. Well, we anticipate that we will also be 
having to provide the resupply. As John mentioned, we have very 
limited resource capability. The Russian Progress vehicles have 
provided a lot of resupply capability, but if we want to 
increase the crew size, we are going to be required to provide 
resupply missions as well.
    Mr. Costa. So it sounds like approximately 14 or 15 Shuttle 
flights.
    Dr. Whitson. Well, I think we will take that question for 
the record and get you an official answer on that.
    Mr. Costa. And if we are doing how many a year--we hope to 
be doing a year----
    Dr. Whitson. Hopefully----
    Mr. Costa. Six?
    Dr. Whitson. Yeah, five to six would be, I think, a good 
estimate, but I think there is a lot of----
    Mr. Costa. So we are talking about a three- to four-year 
period, at least, to complete the Station?
    Dr. Whitson. At least, yes.
    Mr. Costa. Once we become operational with Shuttle. And 
then after it is complete, how long do we believe that the 
Station will be able to perform at that level?
    Dr. Whitson. Well, it is going to depend a lot on the 
maintenance resupply capability that we have provided at that 
point, because we will have to provide capability to repair the 
hardware on orbit.
    Mr. Costa. And do you have cost estimates?
    Dr. Whitson. I am not familiar with----
    Mr. Costa. Okay.
    Dr. Whitson.--those numbers.
    Mr. Costa. I would like to submit that, for the record, Mr. 
Chairman, as well.
    Chairman Calvert. Without objection.
    Mr. Costa. Thank you. I defer--yield the balance of my 
time.
    Chairman Calvert. I thank the gentleman.
    Mr. Rohrabacher.

                              ISS Resupply

    Mr. Rohrabacher. Well, let us hope we aren't that dependent 
on the Shuttle, because at $1 billion a flight, I guess that 
would mean we are not going anywhere. But when we talk about 
resupply, we are not really thinking that the Shuttle is going 
to be the instrument for resupply, are we?
    Dr. Whitson. We can take that question for the record, too, 
but I think there are lots of different plans out there for 
alternatives. With the ATV module being built by the Europeans 
and the HTV module being built by the Japanese, we have lots of 
options.
    Mr. Rohrabacher. Realizing that perhaps these nine flights 
that you spoke about, for the completion of Space Station, that 
is the only vehicle we have that can handle that kind of load, 
but when it comes to resupply, might not the private sector be 
able to be contracted in other craft that cost us less than $1 
billion a flight, not counting what the cargo is that is in 
there? Might we go to that direction and be able to do more 
with less?
    Dr. Whitson. And we will take that question for the record, 
also, but I do know that the program is working on various 
alternatives that do include commercial resupply.
    Mr. Rohrabacher. All right. And about your bone loss, six 
percent. You lost six percent of your bone mass when you were--
would that also happen on the Moon?
    Lieutenant Colonel Fincke. Well, the--sir, we are not 
exactly sure. We think it will be diminished on the Moon, 
because there is gravity. Gravity on the Moon is roughly about 
one-sixth on the Earth, and we think that the reason why we are 
losing some of that kind of bone is because we are not 
stimulating our muscles and our bone by walking. And that is 
mainly where we lose it is in our hips. And so by having a 
chance to walk on the Moon, we may be able to trick our bodies 
into thinking to get more--to continue, but we don't know that 
for sure. But when we go to the Moon, that is definitely, I 
think, one of the things we will learn. And the gravity on Mars 
is one-third, so maybe there is another equation there.

                         Resupply: ISS vs. Moon

    Mr. Rohrabacher. Well, like we say, we have--the most--one 
of the most important contributions of Space Stations is 
learning about how to live in space, and this is our first step 
of humankind living in space. The next step we see, the 
President has outlined this plan very well, and I, of course, 
commend the Administration on--finally, after so long, in so 
many years presenting to us a strategy, a long-term strategy. 
The President's next step in his strategy for space is the 
Moon. And when we talked about resupply for the Station, how 
expensive it is, would resupply for a Moon mission, how would 
that compare to the cost for resupply for people who are in 
Station?
    Dr. Whitson. Well, I am not dealing with the budget numbers 
on that, but I think what this opportunity offers us is the 
lessons we have learned that we have to build hardware at a 
much higher level of maintainability, you know. Our 
requirements for resupply have to be reduced. We can't support 
Moon or Mars missions at the same re-supply level that we are 
doing currently. And I think that is an important lesson. And 
where we can try and reduce that is something that we are 
practicing on board the Station every day.
    Mr. Rohrabacher. So we might be trying to find things on 
the Moon that we could actually generate power from or find 
water sources, et cetera? We can talk--I am sure we will--as 
this goes on, we will be having hearings about the potential of 
water on the Moon and other resources, but we are looking----
    Chairman Calvert. So we can export it to California.
    Mr. Rohrabacher. That would be good. This is the man who 
made sure we had water for the last six years.
    Lieutenant Colonel Fincke. But if I may add, it is that 
there is a lot of oxygen that is connected in the regolith, the 
soil on the Moon. And right now, in kind of like an X-Prize, 
NASA has set out this new program where we are offering a 
reward for the cleaver team that can figure out how to use, 
perhaps, like solar energy and get that oxygen that is trapped 
in the minerals on the Moon so that we won't need to send up 
oxygen, that we would be able to use the resources on the Moon. 
So NASA is trying to be innovative in trying to figure out how 
we can live off the land as best we can.
    Mr. Rohrabacher. That is just the type of creative approach 
that we are applauding your new Director for, and we expect to 
see more of that from him and are very happy that--when people 
come up with those kinds of ideas, because the cost to 
resupply, we can't be spending $1 billion a flight for the 
Shuttle and expect us to have a space program all based on $1 
billion a flight, and that's just the cost of the 
transportation. We have got to get these costs under control 
and find some creative ways of accomplishing the mission in a 
more cost-effective way.
    So thanks for throwing that in, Colonel, and thank you very 
much, Mr. Chairman.
    Chairman Calvert. I thank the gentleman.
    Mr. Wu, from Oregon. We will try to get some water out of 
you, too.

               ISS Configuration and Shuttle Launch Rates

    Mr. Wu. Well, we Oregonians think that California ought to 
be able to get all of the water that California wants. We will 
just peg it to the price of a gallon of gasoline, and we are 
happy to sell however much California can buy, Mr. Chairman.
    I want to follow up on the questioning of Mr. Rohrabacher 
and Mr. Costa. I was just doing, you know, a quick back-of-the-
envelop calculation based on Dr. Whitson's answers about how 
many lift missions it would take to complete the International 
Space Station, and then--well, it seems to me that if you count 
up the number of missions and the mission rate, assuming five 
or six missions per year, we are pretty much hard up against 
the 2010 retirement date that the Administrator has said. Is 
that roughly correct?
    Dr. Whitson. Well, 2010 is the date that we are working to, 
and there are groups that are now doing assessments and 
analyzing what would be the best final configuration for the 
Station. And so I think you will be getting some answers from 
NASA later in the summer on what that configuration will be and 
how we could do that.
    Mr. Wu. But what I am concerned about the 2010 constraint 
being something that, A, shapes the International Space 
Station, whether that would be an appropriate or inappropriate 
limitation on the International Space Station, and B, that the 
2010 date, aside from its effect on the International Space 
Station, also becomes a push date for the crew exploration 
vehicle. And in my readback of the history of the space program 
in the 1960s is that because we were in a race with the 
Russians, the types of vehicles that we used took a certain 
shape, and that became a limitation of you all going forward, 
because we were in a hurry. And I am concerned that the same 
kind of hurry about the crew exploration vehicle will perhaps 
be a limitation on that vehicle going forward.
    Chairman Calvert. I might point out to the gentleman that 
the astronaut corps is probably not prepared to answer policy 
questions, but I appreciate the gentleman asking.
    Mr. Wu. Well, one thing that I have found is that if you 
ask lower in the organization, sometimes the people doing the 
rowing will give you more accurate answers than the people who 
are trained to deal with the public, if you will.
    Dr. Whitson. Well, I definitely think there is another 
group that is working on the crew--our new crew vehicle, and 
they are trying to take all of those lessons that we learned in 
the early programs into account and trying to make fewer 
mistakes. That is part of our hope and goal is to make fewer 
mistakes than we made the first time around and to come out 
more successful than we have even in the past. So I anticipate 
that NASA will have a plan for you later this summer on what we 
think we will be able to do.
    Mr. Wu. Well, Lieutenant Colonel Fincke, Dr. Whitson, Mr. 
Chairman, I want to support your efforts fully, but I also want 
to state for the record that I am concerned about artificial 
constraints, be they of a date or other nature, and how those 
constraints can shape the Space Station or shape future space 
exploration. And I just want to lay that out there, not as an 
item of concern for you all, but as, really, an item of support 
for what your mission should be in the long-term is if there is 
anything that I have observed from my student days to the 
present is that there is nothing quite as permanent as 
temporary solutions, and they--you tend to rely on them for a 
lot longer than one expects to when first going in. And you all 
and your successors wind up, you know, having to live with 
that--with those constraints.
    Chairman Calvert. I thank the gentleman.
    Mr. Wu. I yield back my time.
    Chairman Calvert. Mr. Feeney from Florida.

                    Challenges of Human Space Flight

    Mr. Feeney. Thank you, Mr. Chairman.
    And for both Dr. Whitson and Lieutenant Colonel Fincke, 
with respect to the expertise that you uniquely have as 
astronauts on the physiological impacts of space travel in low 
Earth orbit, do you have some experiences or guess about what 
that portends for the future of mid Earth orbit or high Earth 
orbit for human beings? We have got lots of technological 
challenges. We have talked a little bit about the exercise to 
levels. I know we are doing some experiments on the current 
Expedition 11 astronauts when they get back, but based on your 
experience so far, do you have some scientific challenges that 
you can help us deal with, or do you just have some good 
guesstimates of problems that we are going to face as we move 
into further mid and outer Earth orbit?
    Dr. Whitson. Well, the human body responds very 
individually unfortunately for us, because it would be so much 
easier for us to answer the question with one person. Mike's 
experience on bone loss was very different from mine. I lost no 
overall bone density during my space flight, but I had a 
different exercise regime. And so we are learning from that. 
Maybe it was the exercise. Maybe it was something else as part 
of what we were doing during the mission. We have to pick those 
pieces apart to find out the best solutions to going further 
out to the Moon and Mars. I think we are well on our way. We 
have seen a lot of promise, and we are getting the information 
and data that we need to make the conclusions and to develop 
the right procedures to protect and minimize our bodies against 
those risks in space. But there are lots of things we have to 
work on, the radiation we talked about before. We have to have 
exercise hardware that is reliable enough to get us all of the 
way there and back and so that when we get to the Moon or Mars 
we have that capability to perform well once we are there.
    Lieutenant Colonel Fincke. That is the--we are--we don't 
think we have the bone loss problem licked, but we think we 
have a good handle on it. We understand it. The radiation 
shielding, that is something we are--that is a little bit right 
now a long pole in the tent, and we are spending efforts 
appropriately to try to figure that out, how to come up with 
radiation shields that don't weigh a lot, because every 
kilogram, every pound that you send up costs a lot of money. 
And that is one of the tricks, especially as we get out of low 
Earth orbit and away from our magnetosphere that we are really 
going to have to understand, and we are working towards it. And 
hopefully there is going to be some things that we learn about 
these lightweight radiation shields that we are going to come 
up with that will be applicable for radiation shielding that we 
need on the ground, because every hospital I know has an x-ray 
machine and things like that, and maybe there are some things 
that we can feed back into our industry.

                           Future CEV Designs

    Mr. Feeney. One of the things I am excited about the new 
Administrator's proposal is to shorten the window or eliminate 
it when we are out of manned space flight from the original 
proposal of 2010 to 2014 and maybe have no window at all, which 
I am excited about. But the challenge is to design and then 
produce the right CEV to replace the Shuttle and to do some 
more types of missions that are more flexible and more--with 
different and more exciting capabilities for outer Earth orbit. 
What do your experiences, including the exercise, including the 
psychological impacts as well as the physiological, what do 
they tell you about the way, if you were a designer, you would 
try to design the next living quarters? Obviously, you would 
like to be floating around in a comfortable RV with a TV and 
all of the rest of it, but given the reasonable limitations, 
what do your experiences tell you designers ought to be 
thinking about?
    Lieutenant Colonel Fincke. One thing in the psychological 
area, we just like having a telephone. It was really important. 
I talked to my wife once or twice a day, not for a long period 
of time, I was busy, but it was still just being able to say 
hi, especially with our new baby that came. And being able to 
be able to still be in contact with your friends and family 
while you are in low Earth orbit or high Earth orbit or on the 
Moon is going to be important. It is going to be a little 
trickier when you go to Mars, but just having something as 
simple as that, because it doesn't cost very much mass to put a 
voice-over IP telephone on with your communication system. That 
doesn't even cost that much money. I can get one at home really 
cheap. It is one of these things that makes a big difference 
yet it doesn't cost very much in terms of time and money. And 
that is a--those are the kinds of things that we are learning 
aboard Space Station, what we really need and the things that 
we don't need. Exercise equipment, boy, that is definitely an 
important thing, and we had some really good ideas going into 
it, and now we are--we have learned from it, and we are 
moving--you know, making improvements onto the next series of 
designs.
    Mr. Feeney. Well, you should run for Congress. A lot of us 
spend half our time avoiding the telephone here on terra firma.
    Thank you, Mr. Chairman.
    Chairman Calvert. I thank the gentleman.

                         Microgravity Research

    I have one question. The issue of the problems with gravity 
and you are saying you need to understand that. But we really 
don't understand microgravity, do we, because we haven't been 
able to do, really, any experiments of any note, as far as I 
know, in on the International Space Station, is that true?
    Dr. Whitson. Actually, during my mission, the zeolite 
crystal growth experiment that I had conducted was actually 
done in a special rack called the ARIS, Active Rack Isolation. 
And it has got accelerometers that null out. And so basically, 
the rack itself was floating inside the Space Station, which 
is, of course, going around the Earth. And it has got 
accelerometers on it to null out any vibrations from the 
Station itself and to optimize, in that particular case, the 
crystal formation that we were looking for. So we have had a 
limited capability there with individual racks and experiments 
within those racks and those special racks.
    Chairman Calvert. How about upon organisms, on living 
organisms? Have there been any experiments on microgravity on--
as far as the effects of, say, as you mentioned one-third 
gravity, which you would have on--or one-sixth gravity that you 
would have on the Moon or the one-third gravity that you would 
have on Mars, whether it has a zero effect as far as bone loss 
or no effect at all? I mean, have there----
    Dr. Whitson. No.
    Chairman Calvert.--been any experiments on any of that at 
all?
    Dr. Whitson. Not to this point there have not been any 
experiments. It was planned to have those experiments conducted 
when we get the Centrifuge Accommodation Module up on board.
    Chairman Calvert. Now that is where I was----
    Mr. Rohrabacher. Will the Chairman--excuse me.
    Chairman Calvert. That is where I was just moving toward. 
Is the Centrifuge, I believe that is in conjunction with the 
Japanese, as far as you know, going ahead?
    Dr. Whitson. As far as I know.
    Chairman Calvert. As far as you know? Okay.
    Mr. Rohrabacher. Would the Chairman yield?
    Chairman Calvert. Sure.
    Mr. Rohrabacher. Thank you very much.
    When the Space Station docks with their--you know, you 
noted that we have a number of resupply missions that are 
required, and every time there is a docking required, does this 
or does this not interfere with some of these microgravity 
experiments that are taking place and will take place on the 
Station? What have we noted?
    Dr. Whitson. We actually do have hardware that monitors and 
calibrates the vibrations on board the Space Station, some 
specific for the docking events and large events like that, but 
we also have a continuous monitoring at various frequency 
levels so we can monitor what the environment is. And it has 
been interesting, because we have found some interesting 
results relative to that in some of our exercise activities 
that have been going on. So we are learning as we go along 
where we might be perturbing the microgravity environment on 
board the Station. As I mentioned, we have the specific area 
that was specifically designed for those microgravity 
experiments where it is very important and key not to have 
those vibrations interfere.
    Mr. Rohrabacher. And thus we have overcome by those 
protections that we you are talking about, we have overcome the 
jolt that might take place with a----
    Dr. Whitson. Yeah. It minimizes those effects dramatically. 
Yes.
    Mr. Rohrabacher. All right. Thank you very much, Mr. 
Chairman.
    Chairman Calvert. Thank you.
    Well, with that, I want to thank you, Dr. Whitson and 
Lieutenant Colonel Fincke, for your attendance here today and, 
of course, Dr. Phillips, who came from--to us from outer space. 
It was an exciting hearing and historic, I understand the first 
time we have actually had a hearing and heard from our--or 
heard from a witness from outer space. So this was a new and 
exciting thing.
    Mr. Feeney. Mr. Chairman, if I could, I have a point of 
personal privilege. I was speaker of the Florida House when we 
had the Shuttle astronauts actually take questions from 
Governor Bush, Lieutenant Governor Brogan, and the House 
Speaker, who happened to be me at the time.
    Chairman Calvert. Well, Florida is ahead, once again, of 
the rest of us in the country, and so--but this is the first 
time in the U.S. House of Representatives, I suspect.
    But with that, I thank you, and we appreciate your 
commitment and dedication to this country, and we look forward 
to hearing from you in the future.
    With that, we are adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
